<html>
<title> - INTERAGENCY REFORM: CAN THE PROVINCIAL RECONSTRUCTION TEAM (PRT) CASE STUDY ILLUMINATE THE FUTURE OF RECONSTRUCTION AND STABILIZATION OPERATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-109]
 
 INTERAGENCY REFORM: CAN THE PROVINCIAL RECONSTRUCTION TEAM (PRT) CASE 
    STUDY ILLUMINATE THE FUTURE OF RECONSTRUCTION AND STABILIZATION 
                               OPERATIONS

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 29, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
42-901 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                 Andrew Hyde, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, January 29, 2008, Interagency Reform: Can the Provincial 
  Reconstruction Team (PRT) Case Study Illuminate the Future of 
  Reconstruction and Stabilization Operations....................     1

Appendix:

Tuesday, January 29, 2008........................................    43
                              ----------                              

                       TUESDAY, JANUARY 29, 2008
 INTERAGENCY REFORM: CAN THE PROVINCIAL RECONSTRUCTION TEAM (PRT) CASE 
    STUDY ILLUMINATE THE FUTURE OF RECONSTRUCTION AND STABILIZATION 
                               OPERATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Bensahel, Dr. Nora, Senior Political Scientist, RAND Corporation.    18
Bodine, Ambassador Barbara K. (Ret.), Diplomat-in-Residence, 
  Woodrow Wilson School, Princeton University....................     8
Flournoy, Michele A., President, Center for a New American 
  Security.......................................................    14
Pascual, Ambassador Carlos, Vice President and Director, Foreign 
  Policy, The Brookings Institution..............................     4

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    49
    Bensahel, Dr. Nora...........................................    88
    Bodine, Ambassador Barbara K.................................    51
    Flournoy, Michele A..........................................    74
    Pascual, Ambassador Carlos...................................    62
    Snyder, Hon. Vic.............................................    47

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Conaway..................................................   101
 INTERAGENCY REFORM: CAN THE PROVINCIAL RECONSTRUCTION TEAM (PRT) CASE 
    STUDY ILLUMINATE THE FUTURE OF RECONSTRUCTION AND STABILIZATION 
                               OPERATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                         Washington, DC, Tuesday, January 29, 2008.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. Good morning. We are going to go ahead and get 
started.
    Mr. Akin, we are told, is on the way, but he said it is 
okay for us to go ahead. Mr. Bartlett is here this morning.
    We appreciate you all being with us this morning.
    This is the Subcommittee on Oversight and Investigations 
hearing on the implications for interagency reform, derived 
from the specific example of the establishment and operation of 
Provincial Reconstruction Teams (PRTs).
    We are part of the Armed Services Committee, and yet we 
have spent the bulk of our time the last six months looking at 
really the interaction between the civilian side of our 
government with the military side and what it means for our 
national security.
    And I would ask unanimous consent that my written statement 
be made a part of the record; the same with Mr. Akin, if he has 
a written statement, I am sure he does, be made part of the 
record; as all your opening written statements will be made 
part of the record.
    I just want to make several comments. This effort to look 
at the PRTs, we think, has been very worthwhile. Perhaps it is 
the first formal way that this Congress has really looked at 
this issue of interagency reform, other than the buzz that has 
been going on in town here for some time.
    Good morning, Mr. Akin.
    It was brought home probably most forcefully to me with one 
of my constituents who is currently in Iraq and works on the 
civilian side. And in an e-mail that she sent several months 
ago, which I have shared with this subcommittee before, she 
stated that in her experience that it sometimes seems to her 
like the conflicts between her agency and other U.S. Government 
civilian agencies is more severe than between her agency and 
the Iraqis. And that is what you all, in a perhaps more 
academic and concrete way, are talking about here this morning.
    I was also struck--I forget which one it was, maybe it was 
you, Ms. Flournoy, that was talking about in your first page of 
your statement that while we have had some spectacular military 
and national security successes, we have had some failures. And 
the failures may be ones that we can lay at the feet, not on 
our military, but at its failure of us to mobilize--on all of 
us, I include us here--to mobilize all aspects of our national 
security strengths so we can have the kind of successes we 
want.
    And of course we are all familiar with, I thought, the 
excellent speech that Secretary of Defense Robert Gates gave 
November 26 of last year at Kansas State.
    And I am going to ask, Mr. Akin, that this Secretary Gates 
speech be made part of our record today too, in which here is 
the Secretary of Defense at a time when they really would like 
to have additional funding for resetting the force and all 
kinds of things.
    And I will just read one of his quotes, ``What is clear to 
me is that there is a need for a dramatic increase in spending 
on civilian instruments of national security, diplomacy, 
strategic communications, foreign assistance, civic action and 
economic reconstruction and development.'' That is Secretary 
Gates, our secretary of defense, talking about this.
    Then very specifically, Mr. Wilkerson--last week, the topic 
of interagency processes came up, as this subcommittee, led by 
Mr. Davis and Ms. Davis and others, this topic comes up quite 
frequently in our hearings, and Mr. Wilkerson, a former close 
associate of Secretary of State Powell, stated he thought that 
while we could look at this broad issue of interagency stuff 
across the spectrum of civilian government, that if the 
Department of State and the Department of Defense if they can 
come, either because of imposition from the Congress or the 
President, but if those relationships get worked out, that the 
rest would fall in line fairly readily, which I thought was an 
interesting point.
    So we come here today to hear from you all following the 
evaluation that we have had over the last several months of the 
PRTs. We appreciate your presence here this morning.
    And before introducing you, I will recognize Mr. Akin for 
any comments he wants to make, and his opening statement will 
be made part of the record also.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 47.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman, and thank you to all of 
our witnesses for joining us here this morning.
    After studying the Provincial Reconstruction Teams and the 
subject of interagency stability operations for over four 
months, the subcommittee is nearing the close of that 
investigation.
    Today's hearing offers an opportunity to hear from experts 
on what lessons we should learn from the PRT Program and 
processes for planning and executing stability operations.
    One of the challenges this subcommittee faces as we close 
our work on the PRTs and interagency stability operations is to 
try to figure out how, if at all, the Congress can move 
legislation that will ensure that the agencies, like the 
Department of Defense and State, will work seamlessly and apply 
the tools of national power.
    Much of what needs to be done are matters that are within 
the constitutional prerogative of the executive branch. Other 
initiatives that the Congress could appropriately address would 
still face hurdles because much of what needs to be done can 
only emerge outside the various congressional committee 
systems.
    I thought the concrete proposals you have recommended in 
your prepared testimony are helpful and consistent with what 
the subcommittee has learned over the course of this 
investigation.
    As we discuss your suggestions today, I would like our 
witnesses to delineate which proposals could be done in the 
short term and how Congress can advance such an initiative.
    I would also just mention that some years ago there when 
Harvard MBA programs came out with a thing, a case study 
approach, one of the things that they always asked witnesses 
would be, ``If you just had only one thing you could do, what 
is the most important change that you would make?'' So if in 
your testimonies you could address that, say, ``If there were 
just one thing to change, this is what it would be.''
    Mr. Chairman, thank you. I look forward to the testimony.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 49.]
    Dr. Snyder. Thank you, Mr. Akin.
    Our witnesses today are Ambassador Carlos Pascual, Vice 
President and Director of Foreign Policy, The Brookings 
Institution and the first coordinator for Reconstruction and 
Stabilization at the State Department; Ambassador Barbara 
Bodine--am I saying that right, Bodiney?
    Ambassador Bodine. Yes.
    Dr. Snyder. Diplomat in residence at the Woodrow Wilson 
School of Public and International Affairs, Princeton 
University and a former Foreign Service officer with over 30 
years of experience concentrated in the Arabian Peninsula and 
the greater Persian Gulf, including as ambassador to Yemen; Ms. 
Michele Flournoy, President of the Center for a New American 
Security, formerly of the Center for Strategic and 
International Studies (CSIS), did work on the Beyond Goldwater-
Nichols project, and before that principal deputy assistant 
secretary of defense for Strategy and Threat Reduction and 
deputy assistant secretary of defense for Strategy; and Ms. 
Nora Bensahel, senior political scientist, The RAND Corporation 
and author of numerous studies on post-conflict reconstruction 
and the related policy challenges.
    Ambassador Pascual, we will begin with you. We will put on 
this five-minute clock with its very attractive green light 
that seems to rapidly turn to red. It is a signal to you that 
five minutes is up, but you feel free to ignore it if you have 
things you want us to hear about. We just put that up there so 
you will have a sense of the passage of time. And then we will 
just go right down the line.
    Ambassador Pascual.

  STATEMENT OF AMBASSADOR CARLOS PASCUAL, VICE PRESIDENT AND 
      DIRECTOR, FOREIGN POLICY, THE BROOKINGS INSTITUTION

    Ambassador Pascual. Very good.
    Mr. Chairman, Mr. Akin, other members, thank you very much 
for this opportunity to testify before you. Thank you for 
accepting our written testimony for the record.
    Dr. Snyder. Pull that microphone a little closer, if you 
would, please.
    Ambassador Pascual. I very much want to commend the 
committee for the focus that it is giving on the integration of 
civilian and military capacity to support our national 
security. One of the things that I have learned in working with 
our military is that in today's world the military will tell 
you that kinetic force is not enough to achieve our national 
security objectives, and Chairman Snyder, you stated that very 
well at the beginning.
    These comments are based on the work that we did in setting 
up the Office of Reconstruction and Stabilization meetings with 
virtually every combatant command, meetings with the joint 
staff, joint planning exercises that we undertook with them, as 
well as experiences that I had at different times in my career 
working on the National Security Council staff, the Agency for 
International Development (USAID) and the State Department.
    So I have at least had the benefit of some experiences that 
allow me to bring together some of these different perspectives 
from different agencies in some, I hope, useful ways for you.
    Let me just underscore a couple of key findings from the 
work that we have done and things that we have learned from 
stabilization and reconstruction.
    First is that it takes at least five to ten years until it 
is possible to get local partners to really take the lead in 
the stabilization and reconstruction effort. To imagine that 
you can build capacity and help them build capacity any faster 
is a fantasy, and it just simply hasn't been done. Look at 
small states like Bosnia and Kosovo.
    The easiest part is up front in the most destabilized 
period because the international community is actually coming 
in and doing something to a country. The hardest part becomes 
as you start to build that capacity over time, and it slows 
down that process of transition, and we haven't understood 
that. In fact, in a place like Iraq 2003 and 2004, those were 
the easy years.
    The other thing that we have to understand is that we need 
multilateral engagement to succeed, in order to have the depth 
and the range and the time commitment that is necessary to 
undertake these missions.
    Afghanistan is a good example where we have the U.N. and 
NATO and the United States and 30 nations, and here we are 
still struggling to succeed. To imagine that we can do this 
alone is just simply a fantasy. If we even look at tiny Kosovo 
and the effort that it has taken multilaterally, we have to 
remember that the capacity that we build as the United States 
to be successful has to be leveraged with multilateral 
engagement.
    And, finally, I would underscore that security is a 
prerequisite. There is a certain irony here that on one hand 
you need security as an enabling environment. If you don't get 
progress on stabilization and reconstruction and begin to 
normalize life, you can't actually sustain that security. But 
we shouldn't fool ourselves, and until there is some basic 
environment of security, it is very hard to have a sustainable 
stabilization and reconstruction effort.
    In order to address some of these issues, I have tried to 
underscore in the testimony that there are three levels of 
capacity that we have to look at building. And let me try to 
draw, since this is the House Armed Services Committee, an 
analogy with the military.
    The first is the functional equivalent of a joint staff, 
and this is what the Office of the Coordinator for 
Reconstruction and Stabilization, S/CRS, was intended to do. 
The joint staff and the military tries to create a common 
strategy in a given theater where there is interoperability 
across the forces. It does not mean that you don't need the 
Army, the Navy, the Air Force, the Marines and the Coast Guard. 
It means that they actually understand how to work together 
toward a common goal.
    And, similarly, the Office of S/CRS was to play that 
function of creating a joint staff capacity across civilian 
agencies and between civilian agencies and the military. That 
process has started. It has been given some foundation in 
National Security Presidential Directive-44 (NSPD-44), but it 
is a very, very fragile foundation that has been created thus 
far.
    The second capacity that you need is the ability to 
establish an operational headquarters on the ground in a 
theater of action. In the military, you have this with a 
combatant command actually establishing a field headquarters. 
You have tens of thousands, if not hundreds of thousands, of 
individuals who constantly work together, train together, plan 
together and are able to deploy together.
    In civilian parts of our government, we essentially send a 
cable around the world and ask for volunteers of who might be 
able to come to establish that headquarters. Not surprisingly, 
it takes months to find the individuals. They have never worked 
together on these kinds of issues, they usually don't know 
anything about the country that they are going to, and so, not 
surprisingly, we are not the most terribly effective in the 
deployment of those individual in establishing the 
headquarters.
    The PRTs are one form of establishing that nature of the 
headquarters, and one of the things that we have learned is 
that if you don't have the staff capabilities to put on the 
ground quickly, the PRT is a theoretical exercise.
    And, finally, the third level of capacity that we need are 
the foot soldiers. If in the second level we have a 
headquarters where we have the individuals who are developing, 
designing and managing our programs on the ground, you need 
those who can actually deliver them--the police, the police 
trainers, the rule of law experts and so forth. And here we 
have essentially depended on contractors in the past.
    I would think that if the U.S. military were asked to be 
deployed with comparable resources and training, they would 
tell us that it would be irresponsible. And yet at the same 
time, we continue to deploy civilian missions which 
fundamentally affect the success of military missions without 
the necessary type of planning capabilities and implementation 
capabilities.
    Let me come back then to bring forward a few 
recommendations and, Congressman Akin, on your question of what 
that one specific intervention would be.
    I would ask you a question first, and that question would 
be, what do you want? Do you want a better planning agency in 
Washington or do you want the capacity to deploy on the ground? 
If you want the capacity to deploy on the ground and you do it 
without planning, then you are going to have a haphazard 
process.
    So I am going to take a mild deviation on your question and 
say that you actually need two things: The capacity to plan 
effectively and the capacity to deploy effectively. And in 
order to be able to do that, there are a few things that I 
think are critical.
    The first is establishment of a budget authority that 
creates an account for stabilization and reconstruction. This 
may seem an arcane recommendation, but if you look at the 
foreign affairs budget, there are at least 20 different 
accounts. The experience that I went through when we were 
developing a strategic plan on Sudan, for example, was to get 
individual agencies, offices and bureaus that manage those 
accounts as fiefdoms to direct them to a particular goal.
    In one case when I asked an individual, ``What is the U.S. 
Government goal that you are trying to achieve and how do you 
contribute to it,'' the response I got was, ``I have done this 
job for ten years and nobody has ever asked me that. Why should 
I begin to do that now?''
    Unless there is a way to break across those account 
structures and be able to identify, for example, $100 million, 
$200 million that are necessary for a particular initiative, 
and then ask the question, ``How do we use those resources to 
most effectively achieve the U.S. government's objectives on 
the ground,'' you can't come to an effective strategic plan.
    The environmental that we have right now--and I have been 
in it in the field--is that you look across these 20 accounts 
and you ask the question, ``How can I get money from any of 
these accounts to bring those resources here to the problem 
that I have in the field?'' And so you end up making choices 
that are not always the most strategic, you don't get resources 
for the things that are necessarily the most important on the 
ground.
    And a way to deal with this would be to allow the President 
to make a determination on the creation of a stabilization and 
reconstruction account for a particular country when the 
circumstances warrant it, to reach agreement on that with the 
Congress and within that account to allow transfers from 
anywhere else in the foreign affairs budget so that it goes 
into a common account where you can basically say that the 
resources there can be used for any purpose in the foreign 
affairs budget.
    This is not terribly complicated to do, it doesn't cost 
additional money, it has been written up in the Lugar-Biden 
bill since 2004, and it has gone absolutely nowhere, and it is 
the kind of action that can be done immediately at very little 
cost.
    The second recommendation is on the creation of what the 
State Department has called an active response corps. It is 250 
people in the State Department and other civilian agencies. The 
purpose of this is to have individuals who take as their 
assignment the capacity to train for fast deployments on the 
ground, individuals who work together, so that when you have a 
situation where you need to establish that headquarters on the 
ground, you are not going worldwide trying to find who are the 
individuals that are available, but you have 250 people who are 
immediately identified.
    And if those people go into a standby corps, you can 
imagine that over years you can build a cadre of 750 people or 
so who have gone through this training and are your immediate 
pool for that kind of response capacity. This is a relatively 
low-cost way in order to be able to move quickly in 
establishing our capabilities on the ground and to be able to 
draw the personnel that are necessary for deployments to a 
Provincial Reconstruction Team.
    The third recommendation would be the creation of a 
civilian reserve corps. I would propose a civilian reserve of 
about 3,000 people. I would recommend that it focus initially 
on police, police trainers and rule of law experts, because 
this generally has been the long pole in the tent in being able 
to establish stability on the ground and to transfer functions 
from the military to indigenous police.
    Right now, we have contractors that we draw from all over 
the United States with no common doctrine, deploy them on the 
ground. In a place like Afghanistan, it was actually two years 
before we actually even began to put together a strategy that 
effectively started to address issues related to the rule of 
law, and we still don't have the capacity to implement it on 
the ground.
    In the 2007 supplemental, a $50 million appropriation was 
provided in order to begin to establish a civilian reserve. It 
is absolutely frozen because there is no authorization. H.R. 
1084, sponsored by Congressman Farr, is available. Moving that 
forward and getting that passed is the first way to create that 
civilian reserve capability.
    The fourth recommendation is the creation of a conflict 
respond fund with about $200 million. We know that this will 
not fully fund any major mission, but what it can do is begin 
to create the capability of getting your teams on the ground 
for the first two to three months of implementation. Because 
what we do know is if you have to wait for a reprogramming of 
funds or a supplemental appropriation, it will be months before 
that money is available. If you can get your teams on the 
ground in that dynamic moment where you can influence the 
course of change, it can have an impact that can influence the 
overall success of the mission.
    And, finally, I would just underscore the importance of 
this subcommittee's support for section 1207 of the defense 
authorization bill that allows for a transfer authority from 
the Defense Department to State, because even with a conflict 
response fund, that is a tiny down payment on the requirements 
necessary for quick deployments in the field.
    I will just conclude by underscoring that creating these 
capabilities, I think, is truly a bargain. In effect, the total 
cost of the active response corps, the staff in S/CRS, the 
conflict response fund is about $350 million. The defense 
authorization capability in section 1207 creates an 
authorization against existing appropriated funds. It is a 
relatively small cost when we look at how much we are spending 
on the defense side.
    But look at it from this perspective: If by creating this 
capacity we would create or would have created the capacity to 
withdraw one division from Iraq one month early, we would have 
saved $1.2 billion, not to mention the lives that would have 
been involved.
    And so I just underscore again the importance of the work 
that this committee is doing and the way that you are reaching 
across defense and civilian lines, because the only way that we 
can really address these issues is if we think about a national 
security budget and not a defense budget and a foreign affairs 
budget. Until we integrate these to understand what is 
necessary for the national security needs of the United States, 
we will not succeed in our objectives.
    [The prepared statement of Ambassador Pascual can be found 
in the Appendix on page 62.]
    Dr. Snyder. Thank you, Ambassador Pascual.
    By the way, Mr. Farr, that you mentioned, that has the bill 
you referred to, has participated in subcommittee hearings and 
has a conflict today.
    Ambassador Bodine.

 STATEMENT OF AMBASSADOR BARBARA K. BODINE (RET.), DIPLOMAT-IN-
     RESIDENCE, WOODROW WILSON SCHOOL, PRINCETON UNIVERSITY

    Ambassador Bodine. Thank you for the opportunity to meet 
with the subcommittee today. I am very grateful that this 
subcommittee is taking--for its interest and the time that it 
is taking to explore very thoroughly, very critically and very 
constructively what can be done by the interagency with the 
full support and oversight of Congress to encourage and repair 
and rebuild the interagency in this process and player so that 
we can much more effectively and consistently support and 
defend the interests of this country.
    A couple of weeks ago, I had met with about 20 cadets from 
West Point, and I started my meeting with them by asking them 
what the difference was between national security policy and 
foreign policy. And then I watched them spend about 15 minutes 
getting themselves twisted into pretzels and finally broke it 
by saying that there really isn't a difference. National 
security policy and foreign policy are the same and they have 
to be addressed jointly, constructively, and it has to be done 
with all the tools.
    I also asked them, since they were West Point cadets, 
``Would you have an army that was made up entirely of armor?'' 
Well, obviously not. There were two midshipmen among the group, 
and I said, ``Well, would you have an armed services that was 
solely Army?'' Well, no, you wouldn't do that either.
    Well, then why should we be trying to do national security 
strategy and foreign policy with really almost one element, one 
tool and that it has to be a civilian-military effort as much 
as it has to be joint services and as much as the services have 
to have a range of tools.
    In the 21st century, the greatest threats that we are going 
to be facing are not going to be from standing armies from 
strong competitor states like the Soviet Union, but they are 
going to come from instability within the very weakest states. 
It is not going to come from powerful adversaries but from 
failed and failing states that are imploding from a perverse 
lack of legitimacy, their inability or their unwillingness to 
provide services and structures and from a lack of a basic 
social compact with their own citizens. And this is going to 
spawn domestic violence and humanitarian misery that is going 
to be unacceptable to both us and the international community.
    This is also going to create a vacuum where transnational 
players will be able to come in and exploit this to either 
spread violence within these imploding countries or to spread 
the threat outwards, and we are going to be facing civil wars, 
secessionist movements, insurgencies and, yes, even terrorism. 
And this is not a prediction for the future, but this is an 
assessment of what the current reality is.
    We don't have a consensus yet on when and exactly how to 
intervene with these imploding states, but I think that we can 
recognize that these reflect political and economic and social 
dislocations and that we have to have all of the tools 
available to respond.
    The two corollaries of this new threat is that, first of 
all, the continuum between threat and actual violence 
interstate is going to be much longer and far more ambiguous 
than it was with conventional threats and conventional 
interstate violence, and there is going to be greater 
opportunities for crisis prevention and mitigation. And the 
second is going to be that the concept of a clear post-conflict 
break, the shift from the military to civilian, is going to be 
equally ambiguous. And what for too long the military 
considered unconventional warfare is simply going to become the 
new conventional warfare.
    I think the Army and the Marines have recognized this shift 
with their new counterinsurgency manual, and yet despite the 
acknowledgement within that manual of the primacy of the 
political and the need for a civilian agency partner, the net 
conclusion remained one of the military lead.
    Now, this is natural and appropriate. For one thing, the 
Army and the Marine Corps can't write the doctrine for the 
civilian agencies, but I think that it also reflected a feeling 
that the civilian agencies either could not or would not be 
full partners. It reflected the imbalance in the resourcing, 
and it was a need on their part for some prudent planning if 
you were going to accept that those two imbalances were going 
to maintain.
    The lack of coordination and collaboration, is that 
inevitable and irreversible? No, it is not, and I think that, 
again, this committee is looking at, ``How do we reverse this 
breakdown in the system?'' There has been a fundamental 
structural change, but I don't believe that the system itself 
is broken or antiquated, but proactive corrective action is 
needed.
    The interagency process and how you make it work has long 
been a debate between the legislative and the executive 
branches, and it goes back to the 1947 creation of the 
Department of Defense (DOD) and Central Intelligence Agency 
(CIA) in the first place and the National Security Council 
(NSC). And it is very curious if you look at the original 
legislation on the NSC, which was to coordinate and 
collaborate, one of its goals was to provide a level playing 
field so that the new agency, DOD, could have a voice up 
against the far more established and very prestigious 
Department of State. We may have overcorrected on that a 
little.
    The tensions that we have within the interagency are not in 
and of themselves necessarily bad. They present the President, 
the interagency, Congress with a range of views, a range of 
options and a whole range of skill sets, and this is not 
necessarily bad so long as it is done within an understanding 
of a process and, I would say, a sense of mutual respect.
    I have spent over 30 years of my--I have spent my entire 
adult life in the foreign service, and almost all of it was 
working interagency, and almost all of that was working with 
the Department of Defense and the uniformed military. And I 
won't go through my history, but what I found in working on 
these issues, be they arms sales or counterterrorism or what do 
we do in East Africa, is that there was always a fundamental 
understanding of shared goals and objectives. And we might very 
much disagree on how to get there, but we did understand on 
where we were trying to get to. And we worked within at least 
understood parameters on how to do it and, as I said, with a 
mutual respect.
    There were times when I might very well doubt the wattage 
of some of the people I was dealing with, but I never ever 
doubted their loyalty or their commitment to the national 
security. And was it ever ideal? No, it never was, and I 
remember in the mid-90's that Michele and I worked on a project 
on complex contingency planning, along with Tony Zinni 
following the intervention in Somalia. The fact that we are 
here over ten years later talking about the same thing is 
perhaps a little depressing, but I do think that some movement 
has taken place.
    But whatever happened interagency there was great debate, 
and at the end of the day, when a decision was made, you 
saluted smartly and you did it, you carried it out.
    What I was not prepared for when I came back to Washington 
in 2003 was how bad the process had become; in fact, it was 
virtually dysfunctional or almost afunctional. A wall had been 
put up between the military and the civilians on working on 
both the planning for Iraq prior to National Security 
Presidential Directive-24 (NSPD-24) and after NSPD-24.
    A colonel friend of mine was told that when he suggested it 
was time to do a political military plan that if he brought it 
up again, he would be fired. Efforts by the Department of State 
to bring uniform military into the Future of Iraq Project was 
met by a directive from DOD to the uniform military that they 
could not participate in this, and this was simply not the way 
that we had functioned for over 50 years at that point.
    So the issue is not so much one that we had a system that 
was antiquated or incapable of handling interagency 
collaboration. We had one where there was actually walls put up 
and made that we could not do this.
    And there is a wonderful quote in David Rothkopf's book, 
called ``Running the World,'' where he quotes a former senior 
Administration official in looking at the decision-making 
process in 2002, 2003, 2004, and said that he had never seen 
more high-level insubordination within the U.S. Government 
within 30 years.
    My point in recounting some of this history, and in my 
statement, is to make the point that we don't have a systemic 
failure of an antiquated mechanism but we do have a system that 
was undermined, in some cases consciously, that cascaded down 
and rippled out, and this is what we are now trying to fix. It 
is a very important distinction between, is the system broken 
or was the system subverted.
    As the nature of the threat has shifted from the most 
powerful to the weakest and the root causes have shifted to 
political, economic and social with this complex continuum of 
civilian and non-kinetic tools, we have also had this 
counterintuitive reorientation of our foreign policy toward a 
lead with force, and other national security tools have become 
subordinated or absorbed. To put this in military parlance, the 
military has become the supported command, and the civilian 
agencies have become the supporting command.
    The reorientation of our foreign policy has been compounded 
by this crippling and chronic imbalance in resourcing. And to 
borrow a phrase that I heard from someone at a conference, we 
now have one agency on steroids and the rest of the national 
security apparatus on life support.
    It has now gotten to the point where that what we have, our 
missions are following resources rather than resources 
following missions. And I think if there is one critical area 
that Congress can and should be looking at is, how do we write 
this balance so that we sit down and we critically look at what 
are the missions and which agencies are best able to fulfill 
those missions and have the resources following them? We need 
to just turn this over.
    The military will take on the roles and the missions of the 
civilian partners if they are unable to do so, and they often 
end up both reinventing wheels that have been already up and 
running and often not as well, and then if we have, as my 
colleague pointed out, instead of them actually being able to 
take them on, it then ends up being outsourced to contractors. 
And the contractors you have a problem of standup, you have a 
problem of accountability, as we have seen, and it is not just 
with the security contractors.
    And so we privatize a number of the non-warfighting 
functions. We then add to the military a whole host of non-
kinetic functions, and we end up with having to contract this 
out. And it simply, to me, does not make any sense if you are 
trying to have what the military likes to call it, a unity of 
command or a whole government approach.
    The Provincial Reconstruction Teams, I think, are a very 
creative, very useful, still imperfect and evolving response to 
these kinds of problems, and they present a good laboratory. 
They do raise a number of questions at this point: Should the 
PRTs be counterinsurgency (COIN)-centric, and, again, should 
they be in the service of the military mission or not? Are we 
looking for quick fixes to further security or are we looking 
for longer term solutions to build stability--and security and 
stability are not the same.
    To what degree can and should we be looking to bring in 
local stakeholders, non-governmental organizations (NGOs) and 
multilateral partners and international organizations? And does 
the primary mission and who has either de facto or de jure 
leadership, how does that affect our ability to bring in these 
other partners? And the answer on that is it has an enormous 
impact.
    And then most finally, can there be any kind of effective 
interagency coordination and collaboration in the field if you 
don't have something comparable back here at home?
    Drawing from the lessons of the PRTs, they are a very good 
transitional mechanism, they should be in support of COIN 
operations, but they shouldn't be an extension of them. It has 
to have a political strategy, and they should be focused on 
sustainability development.
    One problem that we have to look at is that we don't 
delegitimize local stakeholders by doing things too much 
ourselves, and I saw this as ambassador in Yemen where the 
military would come in and do things for as opposed to with. 
And while it was very good to come in an vaccinate every single 
goat in Yemen and all the little two-legged kids as well as the 
four-legged kids, it did nothing to build any kind of capacity 
for the local government, and in some ways if done incorrectly 
underscores to the local population that actually the local 
government is not able to do this. So we have to think about 
not just what we are doing but how we are doing it.
    This is not a recommendation that there be a strict 
division between security, but there has to be a better balance 
of missions.
    The counterinsurgency manual is revolutionary and radical, 
but it draws very heavily on the lessons of the past, and it 
goes back to basics, but then it tries to get them right for 
the 21st century. And I think this is what we need to do on the 
interagency process is go back to basics and then try to make 
it right.
    What do we need to do? Very quickly, the basic decision-
making and policymaking process needs to be reaffirmed. There 
needs to be clarity on who are the supported and the supporting 
agencies. I would say there needs to be a reaffirmation of the 
authority of the chief of mission. The National Security 
Council needs to serve the President by serving the interagency 
and also supporting effective congressional oversight.
    To echo what my colleague has said, there has to be 
formalized civilian-military coordination in anticipation of 
crises, not just in response to them, and this would include 
mandating. And I think this is something Congress can do 
quickly and easily is to support the Biden-Lugar and formalize 
what is contained in NSPD-44 and the structure of S/CRS.
    Very importantly, there has to be sufficient, regular and 
predictable funding. Parity with the military is not the goal 
but equity is. We have to have the funds, the staff, the 
resources commensurate with the challenges and the threats that 
we are facing. We need the staff and the resources in the State 
Department particularly, and I would certainly agree with 
Secretary Gates. We need what the military calls a training 
cushion so that we can train to languages, to area studies, to 
the new skill sets and expertise that we need. The State 
Department does not have a training cushion at all; in fact, we 
are short.
    We need to have enough of a training cushion so that we can 
send our people for advanced education opportunities. I have 
now taught at four different universities. I have been very 
much impressed by the number of captains and majors and 
sometimes lieutenant colonels who are at Harvard and MIT and 
Princeton and UC getting one-year MPAs studying these issues. 
And it has been very sad to see that there is almost never an a 
Foreign Service Officer (FSO) among this group. We need the 
training cushion and the resources to take advantage of these 
opportunities.
    The Foreign Service Institute--I was dean there for a 
while--needs to be an institution that is capable to fulfill 
these kinds of missions, these training missions, area studies, 
language. Also to be the center for this interagency training 
that has to take place. If we are going to do it, I think that 
this is the place it should be done, but it cannot be done 
without the proper support.
    There does need to be long-term interagency training. We 
need to know who we are, who the other person is. I had the 
opportunity to do the one-year senior seminar at the State 
Department, which was half State, half other agencies. And what 
we learned from each other in being on a bus for almost a year 
driving around the country was probably more important than 
what we actually learned when we got to wherever the bus was 
going.
    We need to be able to staff our embassies fully and 
completely. Admiral Gehman who came out to Yemen following the 
Cole was appalled to find out that the country the size of 
France, I had one political officer, one economic officer and 
one Public Affairs Officer (PAO), that was it. We need to staff 
embassies, we need to reopen consulates, and we need the money 
for our public diplomacy program that is real.
    We need to staff so that we can respond to crises without 
stripping our embassies. I had a colonel once ask me why the 
State Department simply didn't send everybody to Iraq. Even if 
we sent everybody to Iraq--there are only 7,000 of us, I don't 
think it would make a big difference--but it would also mean 
that we had no one in our embassies to work with our coalition 
partners. We would have no one in our embassies to work with 
those who do not support our efforts. We would have no ability 
to do any of the other work that we need to do. We can't manage 
crises by stripping Peter to pay Paul. We need the people.
    We need a staff and the resources to go with that to do 
outreach to other agencies. We once had people in almost every 
agency, all over town. We need more Political Advisors (POLAD). 
We need the staff to do this.
    And then, again, S/CRS needs to be given the staffing and 
the funding to do its job as a joint office.
    If the Administration, either a Republican or a Democrat, 
does not request sufficient funding, Congress does have within 
its prerogative to set levels, and I do think that this is 
something that Congress needs to take a look at.
    Interagency coordination and collaboration is not an alien 
concept within the interagency. We do know how to play nicely 
together, but we need to be given the ability to do that. It 
would help to have the mandate to do that and the resources. It 
is prudent and wise to ask the question whether we have the 
structure, the process and the people. Do we want to respond 
quickly, effectively and well? Do we want to anticipate, 
respond early and wisely? And that is a different kind of 
structure.
    I have seen the tremendous good that comes when this is 
done in spirit. I have seen the damage and the frustration and 
anger when it is done poorly, and I certainly do commend and 
support this committee's efforts to try to help the civilian 
agencies and the interagency to get back to where they were so 
that we can serve this country properly.
    Thank you.
    [The prepared statement of Ambassador Bodine can be found 
in the Appendix on page 51.]
    Dr. Snyder. Thank you.
    Ms. Flournoy.

 STATEMENT OF MICHELE A. FLOURNOY, PRESIDENT, CENTER FOR A NEW 
                       AMERICAN SECURITY

    Ms. Flournoy. Thank you very much.
    Mr. Chairman, Mr. Akin, Ms. Davis of my home state of 
California, Mr. Davis and other members, thank you very much 
for the opportunity to speak to you today.
    And I wanted to commend your focus on this issue of 
improving U.S. Government performance and interagency 
operations, because since the end of the Cold War, from Somalia 
through the 1990's to present-day Iraq, we have experienced 
repeated operational failures at the interagency level.
    And I think there is no more important area for you to 
focus when you have Americans of all stripes--military, 
civilian--on the ground, putting themselves in harm's way, 
trying to reach our strategic objectives as a nation and yet 
being thwarted because of some of these interagency problems. 
So I really want to commend you and thank you for focusing on 
this effort. And I hope that the committee's efforts in this 
regard will actually produce some important results.
    I want to just take a moment to describe what I think the 
problem is. The various failures that we have experienced in 
interagency operations some certainly stem from misguided 
policy or judgment, but many have stemmed from just poor 
execution. The U.S. Government time and time again has had 
trouble bringing to bear all of the elements of its national 
power in a cohesive and effective way, and I think that the 
problem stems from several sources--and Carlos and Barbara have 
also touched on this.
    We lack a standard approach, an interagency doctrine, if 
you will, for planning and preparing and conducting these 
operations. So we tend to go into each operation reinventing 
the wheel, and this ad hoc approach has kept us from learning 
as a nation. It keeps us from learning lessons from past 
mistakes and then improving the performance next time.
    We also lack adequate interagency mechanisms to coordinate 
and integrate our efforts at all levels: strategic in 
Washington, operational at the, sort of, planning within 
regions and then practically in the field.
    And then, finally, we lack capacity, particularly on the 
civilian side. And coming from a DOD background, what I observe 
is this has very--this is not only bad for mission success, it 
has very detrimental effects on the uniformed military. Because 
what lack of civilian capacity means in their experience is, 
number one, huge mission creep. So they get stuck holding the 
bag, doing all kinds of tasks for which they really weren't 
trained or designed. And they do it and in most cases they do 
it very well, but it is no way to run a railroad.
    The second is even more disturbing, that inability to bring 
the capacity to bear to meet our objectives in the field means 
we don't meet milestones, which means we don't have a viable 
exit strategy, and we get stuck. And the longer we are stuck, 
the more vulnerable we are to increased costs, not only 
financial costs but also, most importantly, human costs.
    So, again, I just want to underscore and applaud your 
efforts of trying to wrestle with this.
    I said more about the problem in my written statement. I 
want to just jump to highlighting some of the most--and try to 
answer Mr. Akin's question, what are the most important things 
that can be done and what can be done near term.
    The first set of things I want to highlight are changes 
that a new Administration, or this Administration but I think 
it is unlikely in the final year, but any Administration, any 
President could change and get very near-term results from.
    The first is using the National Security Council as a means 
of providing clear Presidential guidance, commander's intent, 
for what the President wants to achieve in an operation before 
we ever go in and to create some capacity in the NSC--a senior 
director and a small office--that is really expert in doing 
strategic-level planning for operations.
    I am not talking about an operational NSC or running 
operations out of the NSC a la Ollie North, we don't want to do 
that. What I am talking about is an NSC that is able to 
identify clear objectives, agency roles and responsibilities, 
who is lead, who is support in a particular area, red lines not 
to cross, policy guidance that planners can then take and then 
translate into viable plans.
    Coupled with this, a second piece, is investing in the 
planning capacity of the different agencies who need to 
participate in the process. You have got it in spades in the 
DOD because DOD has a planning culture and a whole cadre of 
military planners. You don't have it at State, you don't have 
it in a sufficient capacity at AID, at Treasury, at Commerce, 
at Justice. That is an investment that Congress and the 
executive need to make. It is not a whole lot of people, but it 
is a core planning capacity in each of those agencies, which is 
critical.
    The last piece that is sort of an easy good government 
thing to do is to standardize an approach, how we are going to 
do this. When I was in the Clinton Administration, we had 
Presidential Decision Directive-56 (PDD-56), and that kind of 
gave us an integrated approach to doing pol-mil planning.
    In the Bush Administration, they came up with a PDD that 
was never signed, NSPD-XX, which was excellent. It was actually 
an improvement on PDD-56. It was never implemented. NSPD-44 
came along, we have got other approaches. Pick one. Use it 
again and again, refine it, train people to it and stick to it, 
as opposed to reinventing the wheel every time we have a new 
Administration or every time we have a new operation.
    At the operational level, create rapidly deployable 
interagency crisis planning teams. The military does this exact 
thing. They basically--you know, a flag goes up, we have a 
warning order for an operation, put together a team, start 
planning for it.
    Given the nature of these complex operations, they are not 
military operations alone; they are whole of government 
operations. You need to have an interagency approach to that 
campaign planning. Again, not that resource intensive but 
something that I think the kinds of initiatives that Carlos was 
talking about funding at S/CRS would populate some of these 
planning teams and make that very easy to achieve in the near 
term.
    And then at the field level, I think we need to look at how 
we organize. Right now, we have two parallel structures. For 
example, in Iraq, we have a very robust country team and 
embassy, and we have a very robust Combined Joint Task Force 
(CJTF) staff headquarters, and they do coordinate with mixed 
degree of success, very well at the top, mixed down below.
    I would submit to you that in the future we need to move 
toward a model where we have an integrated interagency task 
force where you have got the ambassador and the military 
commander working hand in glove at the top but their staffs are 
completely integrated, so there is a civil-military J1, a 
civil-military J2, a civil-military J3 and on down the line--
you can translate that into civilian terms of admin operations, 
intelligence, et cetera. But that is really what we have to do 
for the future.
    Now, turning to what can Congress do and what are the most 
important things for Congress, I think the real role of 
Congress and the most important thing you can do is invest in 
the capacity on the civilian side. This is something a 
President cannot do. It requires leadership and legislation to 
create the civilian capacity, not to match the military person 
for person but to partner with the military in effective ways.
    And I will give you an example. The opening days of Somalia 
you had one diplomat, Ambassador Bob Oakley, paired with an 
entire military force, and that one diplomat negotiated the 
permissive entry of tens of thousands of American Marines 
without a shot fired. One experienced diplomat made a huge 
difference. So, again, the right people, in the right place, at 
the right time can make an enormous contribution.
    I think the first step in creating that deployable civilian 
capacity is to fully fund the S/CRS initiatives that Ambassador 
Pascual described. I think longer term we need to also be 
building that capacity in other places like AID and other 
departments. Longer term we have to determine whether we need 
to establish a separate field operating agency.
    It is still an open question in my mind whether you can 
build highly operational, deployable cadres inside agencies who 
have a fundamentally non-operational culture. I am willing to 
give it a chance, but I think if the experiment of what we are 
trying to do with S/CRS does not make it, I think at that point 
you move to creating a new field operating agency where 
civilian operators are recruited, promoted, trained and 
rewarded for being operators.
    Very important to go with this is the personnel float that 
Ambassador Bodine highlighted--5 to 10 percent. This committee, 
others routinely grants the military 10 percent, 15 percent 
personnel float to do professional military education, 
training, interagency joint experience, because you expect the 
highest professionalism from your military, and that is what 
enables it.
    We don't do that on the civilian side. If I am a manager in 
the State Department and you are asking me to send my best and 
brightest to training, I have to be down my best and brightest. 
I have to lose that person with no backfill for a year or two--
very hard decision. And the incentive structure is exactly 
wrong.
    Third aspect of the investing in capacity, and I think we 
can take some inspiration from the Goldwater-Nichols 
legislation that really has become the foundation for jointness 
on the military side. One of the most important elements of 
that legislation was changing the incentive structure.
    So joint service went from being, sort of, something that 
people didn't like to do because it took them away from the 
service that was their home and where they would get promoted, 
et cetera, to being joint service then became something that 
you have to punch this ticket if you are going to make general 
officer, if you are going to make flag officer. So it 
completely changed the incentive structure 180 degrees.
    I would submit that if we made promotion to SES, Senior 
Executive Service, on the civilian side among key policy jobs 
in the various national security agencies, we made that 
promotion contingent on interagency education and experience, 
rotations in other agencies, you would fundamentally change the 
culture, and you would have the best and brightest running to 
the door to get that experience.
    And over time, as we see in the military, over 20 years, 
over a generation, you would have a fundamentally more joint 
capacity, interagency joint capacity, because you would have 
people with experience after experience of working cross-
agency, living in other agency cultures, et cetera.
    And the last piece of this, I think, is also endorsing 
something that has come up, which is creating a center of 
excellence for training people who are going to be interagency 
planners, who are deploying, participate in PRTs, who are going 
to go staff the planning team, staff the task forces, et 
cetera, a training center where you can capture lessons learned 
and then ensure those lessons learned from the past operation 
inform the planning for the next operation. It is something 
that could be easily put together between the National Defense 
University (NDU), the Foreign Service Institute (FSI) and other 
appropriate training centers. Not a lot of money, huge 
potential impact.
    So I would just, again, highlight, I think there is a lot 
that the executive branch can do to better use the instruments 
it already has to get more integrated approaches, but there are 
areas where it is imperative that Congress make some additional 
investment to build the capacity, to do better in these 
operations over time.
    And, again, I would just say that the payoffs really cannot 
be overstated, both in terms of achieving our strategic 
objectives but in doing so at far less cost in terms of both 
blood and treasure.
    Thank you.
    [The prepared statement of Ms. Flournoy can be found in the 
Appendix on page 74.]
    Dr. Snyder. Thank you.
    Dr. Bensahel.

  STATEMENT OF DR. NORA BENSAHEL, SENIOR POLITICAL SCIENTIST, 
                        RAND CORPORATION

    Dr. Bensahel. Thank you, Mr. Chairman, for inviting me here 
today.
    You asked me to talk about the ways in which other 
countries have reformed their interagency processes for 
improved capacity for stability operations in order to perhaps 
identify some lessons that the United States could apply. 
Unfortunately, there are very few good lessons to be learned.
    The problems of interagency coordination are not limited to 
the United States. None of these international reform efforts 
have been successful enough to date to achieve their mandates 
anywhere in the world. Most of them continue to suffer from the 
same problems of bureaucratic competition and lack of capacity 
that the United States does.
    In my written testimony, I describe the specific reforms 
that have been undertaken in the United States with the 
formation of the coordinator for reconstruction and 
stabilization, the United Kingdom with the formation of the 
stabilization unit, Canada with the formation of the 
stabilization and reconstruction task force, Germany with 
efforts to improve civilian crisis prevention and the European 
Union, which is struggling to determine which of its 
institutions should take the lead in crisis management and 
stability operations.
    I would be happy to discuss the details of any of these 
efforts during the question period if you are interested.
    These efforts have improved capacity in some areas, so the 
story is not entirely bleak, but despite significant 
differences in both their substance and their national context, 
they all suffer from the following four problems.
    First, bureaucratic turf wars. The United States, the 
United Kingdom, Canada and Germany all created new offices that 
are supposed to either lead or coordinate interagency 
coordination. All of these offices have, not surprisingly, 
faced very stiff resistance from the agencies whose efforts 
they are supposed to coordinate. The greater their mandate, the 
more likely they are to provoke resistance from agencies that 
view them as intruding on their turf and interfering with their 
mission.
    Second, poor organizational placement. These offices tend 
to be too low in their government hierarchies to compel other 
agencies to work with them.
    Third, lack of financial resources. Most lack the budgets 
that they need to achieve their missions. This contributes to 
the problem of turf wars since money and bureaucratic power are 
often linked.
    Fourth, lack of qualified personnel. These offices often 
rely heavily on secondments from other agencies to include 
needed expertise and to augment their small staff. But other 
agencies are often reluctant to provide people for these 
secondments and also prevent their best people from serving in 
them.
    Why is interagency reform so difficult, not just in the 
United States but in other countries as well? Simply put, our 
governments aren't structured for it. Our political systems are 
very decentralized. That is a deliberate political choice and 
one that isn't going to change. But what that means is that 
there is always going to be some amount of stovepiping, turf 
wars and competition for resources.
    That said, there are some ways to minimize the negative 
effects of interagency competition and to increase U.S. 
capacity for stability operations. The first is to create 
incentives for interagency secondments. This is a step short of 
what Michele suggested about a field operational agency but I 
think is something that could be done in the short term and is 
an important step to enable civilian personnel who want to 
operate in the field, on deployments, in order to get them 
there.
    Right now, there are several strong disincentives that 
prevent even willing agencies from cooperating, particularly in 
these personnel areas. Congress should establish mechanisms to 
reimburse home agencies for the costs involved in seconding 
personnel for these operations, including salary costs and 
temporary hires to compensate for their absence.
    Second, increase the capacity of USAID. USAID is the 
government repository of knowledge on promoting stability and 
development in post-conflict situations, but it is hindered by 
its small size and its lack of resources. While this committee 
does not have jurisdiction over the USAID budget, it does 
oversee issues that are directly affected by its lack of 
capacity since U.S. military forces are regularly required to 
fill its gap.
    To take but one example from Iraq, military forces are 
actively involved in setting up city councils. No one thinks 
that military forces are best suited to be establishing local 
governance structures, especially not the military personnel 
who are on the ground doing it. But they often have no choice, 
because USAID and other civilian agencies simply lack the 
capacity to get into the field and to do everything that needs 
to be done in these important operations, and military forces 
are stuck filling that gap.
    Third, establish flexible funding mechanisms. Those of us 
on the panel here seem to be in violent agreement on this point 
about the need to establish flexible funding mechanisms and to 
adequately resource these types of operations.
    Stability operations require funds to be quickly allocated 
in order to respond to rapidly changing environments, 
particularly at the outset of an operation.
    In particular, Congress has consistently failed to fund the 
Administration's request for the conflict respond fund, which 
was mentioned earlier. There are legitimate concerns which have 
prevented it from being funded, including those about the role 
of congressional oversight, but those legitimate concerns can 
be addressed through some sort of reporting requirement once 
funds have been disbursed. But requiring the State Department 
to specify in advance the ways in which that fund would be used 
defeats the entire purpose of a contingency fund.
    Fourth, and finally, there is no substitute for an involved 
President and an involved Congress. Only the President has the 
political power to break through the bureaucratic conflict that 
inevitably arises as part of the interagency process. And I 
would suggest that in the cases where the interagency has 
worked well, which Ambassador Bodine mentioned, very often one 
of the key reasons why is that the President has been involved 
and made sure that this is one of this top priorities.
    And only Congress has the power to provide the funds 
necessary to improve the country's ability to effectively 
conduct stabilization and reconstruction operations.
    Thank you very much.
    [The prepared statement of Dr. Bensahel can be found in the 
Appendix on page 88.]
    Dr. Snyder. Thank you, Dr. Bensahel. Appreciate both your 
all's comments today, and all of your written statements, as I 
mentioned, will be made part of the record.
    What we will do now is begin the question and answer 
period, and we will follow what we call our five-minute rule. 
And in this situation, I would ask that when you see the red 
light go on, we will give you time to finish your sentence or 
finish your thought, but if you would wrap that up when you see 
the red light on because that means that we are then taking 
time away from the next member on the list.
    We will begin with Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman, and 
thank you to all of you for being here.
    I think it is one of the first times maybe that we have 
even suggested that it is systemic, but it also depends on the 
kind of vision that people have about how this can be 
accomplished, and so you have been able to lay that out and I 
appreciate it.
    I wanted to just hit on one area. There are many questions 
and Congress member Davis and I, the Davis and Davis team here, 
we are trying to work with this, as are many of the other 
members, and that is why I especially appreciate it.
    If we think about this response corps, we have so many 
individuals who have been involved already, have been involved 
in the PRTs, most of them from the military, bringing their 
skills, whether it is engineering, whatever that might be. I 
wonder if that is a way to try and capture them and to have 
them in some ways, where it is appropriate and, obviously, by 
their decision, to come down the line to be part of a response 
corps.
    It is maybe kind of premature in terms of where we are with 
this discussion, but I am just wondering how you might see 
talking about this in a way that you are developing a career 
ladder out of all these incredible people who have done this 
job, who didn't anticipate doing it. That wasn't what they 
signed up for, but that is what they ended up doing.
    And I think one of the things that has really impressed us 
in speaking to especially the men and women who have served in 
the military, who have been part of this, it is the most 
important thing they ever did.
    How can we do that? Is that appropriate? Do you see a 
mechanism for doing that? And how would it fit within the 
discussion that we are having? Is it too far down the line to 
even try and get out there with it or is that something worth 
facing right now?
    Ambassador Pascual. I am happy to start on this. The 
response corps capabilities are some of the things that we have 
been debating for some time.
    There are two types of responses to consider. One is the 
U.S. Government capacity to actually get the teams on the 
ground that lead and direct our efforts, and I think that that 
is absolutely necessary now, and it is absolutely appropriate 
to think about how these individuals who have had these 
experiences can be integrated into the government functions in 
those capacities.
    And then there is a separate response corps capability of 
how you get the actual assistance providers--the police, the 
police trainers, the humanitarians and so forth--which requires 
a separate kind of mechanism of drawing individuals from civil 
society more broadly as the military draws in individuals with 
civil affairs.
    One point I would just note, in work that we have done with 
the civil affairs groups, they have underscored that their role 
right now is like applying a tourniquet. They can avoid 
somebody dying, but they don't have the capacity the set of 
strategic skills to actually save the life in the way that you 
wanted to.
    And so that is what we are trying to create is the 
individuals within the government who have the strategic 
planning capacity overall, the individuals who can be brought 
in that provide the skills that are necessary across a very 
broad range of areas and complementing that still with a very 
extensive capability and military civil affairs, which 
addresses an immediate humanitarian need.
    Ambassador Bodine. I think what I would add to that, the 
military has done a very good job of trying to capture lessons 
learned from an ongoing conflict, and rewriting doctrine in the 
middle of a war is quite an undertaking. The civilian agencies 
don't have the numbers of people coming back, but I was at FSI 
last week talking to the area studies class--it was about 100 
people--and I asked how many in the room had either served in 
Afghanistan, Iraq, PRTs or were going out to them, and it was 
easily two-thirds of the class.
    And so one of the things that the military did that was 
right, good and proper was they started trying to capture what 
the captains and the majors and the lieutenant colonels were 
learning on the ground and bring that back and we have ended up 
with a new counterinsurgency (CI) manual.
    What we haven't had the opportunity to do, the mandate, the 
time, the resources--I do think that S/CRS is the place to do 
it but it isn't funded--would be to sit down and try to do a 
comparable process on the civilian side, and it would mean 
bringing in the military who have been part of the PRTs but 
also bringing in the civilians who have been part of the PRTs, 
the NGOs who have worked on it and, in a sense, almost trying 
to write a companion volume to the CI manual. And as I said, I 
don't think that we should limit ourselves to just CI 
operations, but it should be pre and post.
    Mrs. Davis of California. What would it take to do that?
    Ambassador Bodine. First, money. Second, I think a mandate. 
This is something that perhaps Congress could mandate is, ``S/
CRS is hereby mandated to organize this.'' And I think that 
would be the one thing you could do--mandate it, fund it and 
give it to S/CRS.
    Mrs. Davis of California. Thank you.
    Ms. Flournoy. I would just add a couple of other ideas. One 
is to make sure that we capture in a database a description of 
who has had what experience.
    And then the second piece is to create some incentive 
structures for those people as they go into the next step in 
their careers to consider further operational experiences down 
the line, whether it is higher pay, better retirement points, 
earlier promotion opportunities, but to sort of capture who we 
have got out there, capture the experience base and then 
incentivize it for people to offer that experience again.
    And then the third thing, as Barbara said, is I think some 
greater mechanism for capturing lessons learned from all of 
this experience that has been had.
    Dr. Bensahel. I agree with all of that. I would just add 
that the military has great difficulty doing this, even on its 
own, even though it has a formidable personnel system 
identifying people who have been participating in these kinds 
of civil military operations. And so while I certainly think 
the need is there to track the civilian expertise and line up 
incentives to continue cooperation, identifying people on the 
military side who have this expertise is a problem as well.
    Mrs. Davis of California. Thank you.
    Dr. Snyder. Thank you, Mrs. Davis.
    Mr. Davis for five minutes.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman. One thing I 
would like to recognize, I really appreciate what Chairman 
Snyder has done in continuing to bring this effort to light. We 
have got a little triumvirate going here to try to force the 
dialogue. Many times in Congress, it might surprise you, it is 
sometimes difficult to get things done. I think we are working 
in the epitome of the founders' vision the last few years here.
    But one analogy that comes to mind for me on this whole 
issue was making pinewood derby cars with my cub scout 
children, with the boys--I went through the equivalent with our 
military experience for the last few years--making the car last 
year with a coping saw, a knife, a block of wood and a piece of 
sandpaper and was ready for physical therapy when that was over 
and a little counseling.
    Finally broke down and bought myself one of these fancy 
grinding and cutting tools with literally dozens of different 
attachments, which was great fun for all of us, and we didn't 
destroy any furniture this time either, which was somewhat 
pleasing to my wife.
    But in that vein, one of the things I look at, just having 
been a process consultant for years, is having the ability to 
have a real strategy, which I think we are lacking and have 
lacked for many, many years with the end of the Cold War. But 
having the inherent planning capacity, I think, is so important 
that the agencies have this. The military had to go through a 
huge adaptation after moving from operational combat to kind of 
make it up as they went along.
    And I think the real question, first of all, for an 
organization, we see four State Department bureaus and one 
Central Command (CENTCOM), which is immediately a recipe for 
disconnect, and you have got many, many dedicated people in all 
of these agencies who are, in effect, having to work around the 
system.
    Funding, I think, is certainly an issue. One of my friends 
in J5 predicted the President would--when they announced the 
additional folks for PRTs, that, effectively, the State 
Department would say, ``yes,'' publicly and quietly say, 
``no,'' and it would become a military mission, which it did in 
many ways with many officers from the Air Force and the Navy 
having to come and backfill literally empty buildings because 
of a capacity issue, not a lack of resolve on the part of 
foreign service professionals to do that.
    I guess my feeling there is I would almost like to see us 
go to a toolbox where we certainly increase the capacity of the 
other agencies where necessary to have expeditionary 
capability, have funding more along the lines of a block grant 
so you can allocate that practically by the team that comes 
together. Around that, organizationally, a toolbox, sometimes 
it might be better to lead with an NGO, with people who don't 
have the same face that become so typical of our deployments. 
And it is no denigration of the great work our young people 
have done but a challenge, nonetheless, to take people into 
unfamiliar terrain.
    And then, finally, the issue of Congress could be very 
troublesome in this, and I mean it more from an organizational 
and a committee structure.
    And, I guess, throwing all those things out on the table, I 
would like your comments on any one of those pieces and 
specifically, perhaps, if one of you might comment on the end, 
on that role of Congress. Is our structure, committee-wise, an 
impediment to this? And what would you recommend we take some 
steps internally to begin to address this interagency issue in 
such a way that we don't become a stumbling block to a 
necessary reform?
    And we will just throw it open to whoever would like to 
start.
    Ambassador Bodine. Go down the table again?
    Ambassador Pascual. On the toolbox, one of the things that 
has been created and is not really extensively recognized is 
that there is actually an agreed interagency planning framework 
that was developed. S/CRS led the process, it was done together 
with Joint Forces Command. It was actually circulated to all of 
the combatant commands. It was tested for over a year. It has 
been tested on the civilian agency side, on countries like 
Sudan and Haiti, and it works fairly well, and it is not fully 
recognized that it even exists. So, actually, in fact, 
elevating that would be a starting point.
    Second set of tools that exists is an essential task 
matrix, which basically goes through and identifies in five 
critical areas the best lessons from the interagency about the 
kinds of actions that need to be taken immediately, what needs 
to be done to build local capacity, what needs to be done to 
build sustainability over time.
    It is not a cookbook, but it is a pretty good checklist of 
questions that you need to ask. If we had simply gone through 
that checklist before the operation in Iraq, we would not have 
deployed, because the answer to most of the initial questions 
would have been, ``I don't know----
    Mr. Davis of Kentucky. I think that is my point; in fact, 
probably should qualify and say, preventing deployment is an 
issue in this case as well.
    Ambassador Pascual. Right.
    Mr. Davis of Kentucky. Because many voices I know quite 
well, with extensive Middle East experience from my other life, 
were not allowed at the table effectively, and I just see the 
structure being a real problem on getting those other 
respective services.
    Ambassador Pascual. And let me just say one thing on the 
structure. I think that if there is a way to deal with setting 
budget resolutions on these issues of national security that 
cuts across the foreign affairs and the defense budget, that 
that is absolutely critical to do.
    The 1207 versus S/CRS conflict response fund side-by-side 
allocation is a proxy for getting at that, but the reality is 
that you are talking about questions of budget resolutions 
where those who are dealing with the 150 account are looking at 
the constraints that they face and they are saying, ``We can't 
accommodate them.'' And so, in effect, these kinds of 
capabilities just aren't going to get funded in the foreign 
affairs budget.
    Ambassador Bodine. Just to make a couple of comments, I 
think that there are two elements, but the most important one, 
from your point of view, is I think you bring up a very 
interesting point on congressional structure, and the doctor 
mentioned the issue that turf wars, when you try to do these in 
other places, has been a problem and with funding being an 
element of the turf war.
    The fact that you all are looking at this issue and 
grappling with it as seriously as you are is great, but where 
is our Foreign Affairs Committee, where is the intel? I mean, 
until there is some coordination and collaboration, if you 
like, on the congressional side, we end up getting stuck in 
turf wars here.
    There are a lot of things that we have talked about in 
terms of staffing and funding and incentives that don't 
necessarily come out of this committee, and so some way of 
building some of those bridges on the congressional side so 
that we can get to a single funding mechanism, so that we can 
really get the economies of effort from this side as well.
    And I think to the extent that you could get some of that 
at this end of Pennsylvania Avenue, it would, again, help 
drive--when we are talking about, for example, legislating 
NSPD-44 and S/CRS and all the other initiatives that we have 
brought up, if even those kinds of things were coming out of 
Congress as a joint armed services-foreign affairs initiative, 
to make it very clear that this is what you all wanted. I think 
that would send a powerful signal.
    The issue of Presidential will and what comes from the top, 
you don't have a lot of control over that, but that is very 
important. What kind of signals are being sent as to who should 
have the lead, who should be playing well together, what is the 
NSC role as a planning and staffing mechanism? Those things 
have to be done, and that is where you get at the toolbox. I 
think Congress can help guide that. Some of it is going to be 
probably reflected in whoever comes in in the new 
Administration.
    Ms. Flournoy. Two quick comments, sir. On the funding 
issue, I think that the block grant idea is very interesting, 
something that gives more flexibility and more responsive 
funding, time-urgent funding flexibility to the people in the 
field.
    The good news here is there some precedent. ERMA, for 
example, small account, Emergency Refugee Migration Assistance, 
has all the right authorities. It is a great example where 
Congress realized that if you wait until people come ask you in 
the midst of a refugee crisis for the money they need and go 
through that process, it is going to be too late by the time it 
shows up. So there was an agreement to give a little bit in 
terms of--give a lot more flexibility and then impose some 
pretty substantial reporting requirements. I think that that is 
a great model for this, sort of, conflict response fund and is 
urgently needed.
    On the committee question, I think there are two ways to go 
at this. One is, sort of, a higher level of regular cooperation 
between the Armed Services and Foreign Affairs Committee, but I 
think you could also consider a standing committee for 
oversight of interagency operations. And I think given that we 
are going to be doing these things not necessarily on the scale 
of Iraq but a lot of preventive things, a lot of complex 
operations of various colors and types over the coming years, 
these issues come up again and again and again. And so some 
kind of structure that would bring together the leadership or 
selected members from the key committees to regularly engage 
and iron out these issues, I think, would be extremely helpful 
and very important to success.
    By the way, this was a recommendation in our first goal 
beyond Goldwater-Nichols report, and I think it was the one 
that was received with the most deafening silence up here on 
the Hill. [Laughter.]
    Dr. Bensahel. I agree with what was just said about the 
importance of creating new committee structures and oversight, 
because I think that the committee structure of Congress is one 
of the most detrimental aspects of being able to fund these 
kinds of operations across the civil-military gap the way that 
they need.
    And while it really is a pleasure to see this committee 
take such interest in civil-military cooperation, I would have 
been happier, for one, if this invitation had come from the 
Foreign Affairs Committee, because I think they are the ones 
that have the job of appropriating the funds for these types of 
things as well. And so increased coordination. to the extent 
possible, between this committee and the Foreign Affairs 
Committee, to make sure that the budgets for these kinds of 
operations can be increased, I think, is extraordinarily 
important.
    I once had a Canadian colleague ask me, in complete 
confusion, why we didn't just transfer $10 billion or so from 
the defense budget to the State Department budget and wouldn't 
that solve all of our problems? And in a parliamentary system 
you can do that. In a system that we have in this country you 
can't do that so easily, but we need to get closer to that in 
terms of being able to allocate funds rapidly and effectively 
where they need to be.
    Mr. Davis of Kentucky. Thank you.
    Dr. Snyder. Mrs. Davis, would you like another bite at the 
apple before you have to leave?
    Mrs. Davis of California. Mr. Chairman, thank you so much. 
I appreciate that, but I was going to go to another meeting 
that Secretary Gates was at. I think he has left by now. You 
were all so compelling I had to stay.
    Dr. Snyder. Well, if you are not to leave, then you are 
going to wait your turn. [Laughter.]
    Mrs. Davis of California. Please, Mr. Chairman, go ahead.
    Dr. Snyder. I wanted to ask, the NSC has come up several 
times, and we have talked a lot about congressional role and--I 
always forget the name of the one--Ms. Hicks, Kathleen Hicks 
and their report that Mr. Andrews was involved in and Mark Kirk 
and some others. NSC was a prominent part of their state.
    Several of you have mentioned NSC and the role they should 
play. Would you discuss--of course, we talk about congressional 
oversight and the job that this body, the Congress, should play 
in making sure that we are achieving the national security 
objectives through the systems that we set up.
    The more that we put in the NSC, the less congressional 
oversight there will be. That is the nature of it. NSC folks 
don't come up here and testify. They won't come testify. They 
will maybe come if we say, ``Please, oh, please,'' for a 
private breakfast, but that is about as far as we get.
    Discuss that, if you would, please.
    Dr. Bensahel, why don't we start with you and go this way, 
for a change?
    Dr. Bensahel. Thank you.
    Dr. Snyder. We will let Ambassador Pascual get a chance to 
get his thoughts together.
    Dr. Bensahel. The NSC plays a crucial role in interagency 
coordination for these, and, frankly, much of that is done at 
the NSC despite the fact----
    Dr. Snyder. No, I want to get to the issue--that may be 
true, but how do I know that? How is Congress going to provide 
the kind of oversight--the word, ``failure,'' has come out here 
several times when you look back at the past in your 
interagency stuff. How do we provide the kind of oversight 
because of putting things in the NSC, the Presidential 
advisors?
    Dr. Bensahel. Well, I think part of the way that you do 
that is through the usual mechanisms of oversight with the 
various agencies themselves directly. Even though you can't get 
oversight into what is going on in the NSC, you can find out a 
great deal from those who the NSC is supposed to coordinate, 
the extent to which they are doing that and how that process is 
unfolding.
    But, ultimately, I think that despite the fact that it is 
not easily acceptable to congressional oversight, the NSC plays 
a very critical role in setting up some of the planning 
parameters and issuing some of the policy guidance that is 
essential for this process to work properly. If it is doing its 
job right, you should be able to see that manifesting itself 
throughout the rest of the government process, and, likewise, 
if it is not doing its job well.
    Ms. Flournoy. I think when you were talking about planning 
and integrating effort, you really can't expect agencies to 
direct one another. I think the NSC plays a critical role, but 
I understand your concern.
    I think one of the ways you can work around that is, in 
some cases, to have a dual chair, and I know that Ambassador 
Pascual, this is probably what came out of NSPD-44 in some 
cases, where you have an NSC and departmental co-chair of, for 
example, a planning process of a particular interagency team.
    And so the President maintains the prerogative to have his 
staff serving him in privacy and in confidentiality, et cetera, 
but you also have a way to tap into people who are very well-
informed about that process who you can call and ask to 
testify, et cetera.
    I underscore the point that Nora made, which is I think one 
of the problems we have run into recently is that this 
Administration, among others in our history, has chosen a lead 
agency model where you put DOD in charge of Iraq and they are 
going to run the show and bring everybody else to the table.
    Well, that typically doesn't work very well in our system, 
because agencies don't take direction, particularly with regard 
to resource allocation, very well from one another. You need 
the honest broker of the NSC, with the President--the 
imprimatur and the power and the backing up of the President--
to do that integration piece effectively.
    But if there is an agency that has a lead role or a 
predominant role, you can make that agency co-chair with the 
NSC to try to, sort of, bridge the gap.
    Ambassador Bodine. I want to take a slightly different 
position. We have been, as you said, agreeing so furiously. I 
agree that if too much is vested in the NSC, you run the risk 
of not just the oversight issue that you brought up but the NSC 
morphing into an operational organization. And the few times 
that the NSC has gotten into operational issues, they have 
generally not been a good thing.
    And part of that is because not only does Congress not have 
oversight over the NSC but to some extent even sometimes the 
agencies don't necessarily know what they are doing. So I would 
be hesitant to put too much of this into the NSC formally. The 
NSC's role is to coordinate, to collaborate, to be the honest 
broker, but I was involved in the Office of Counterterrorism 
for about four years, and we had a co-chair, at least we did 
have a co-chair for a while, and it was clear that State had 
the lead role as the coordinator--and that was the name that 
was used--and that the other agencies were expected to provide 
staff and resources. And for awhile it worked extremely well. 
And I think that this is what S/CRS can do.
    Other agencies don't like to give money to someone else, 
but I think, again, if we are talking about a mandate, if we 
are talking about legislation, if we can get it from Biden-
Lugar to Biden-Lugar and several others, that is doable.
    NSC should set policy. You need an agency that is 
responsible for the implementation of that and for the day-to-
day coordination of that. That should not really be at the NSC. 
I think you do need supported agency and then supporting 
agencies. We have had times when that has worked and it has 
worked very well, and I would suggest that model.
    Ambassador Pascual. Let me go back and try to draw on the 
analogy that I created between S/CRS and the joint staff of the 
military. I think everybody here would recognize that the joint 
staff in the military is absolutely necessary. It should be in 
the Pentagon. I think everyone would recognize that there is a 
necessity for a director for defense in the NSC, and they have 
a relationship with one another, which is also linked, the 
relationship to the Office of the Secretary of Defense as well 
as to the civilian agencies.
    On stabilization and reconstruction issues, if indeed this 
model of S/CRS as a joint staff on issues related to conflict 
is the one that we want to pursue, their are link back to the 
NSC is one director who is within the directorate that is 
responsible for humanitarian affairs that reports to the deputy 
national security advisor who is responsible for the G8 process 
and trade issues, who then passes on information to the 
principal deputy national security advisor, who then reports to 
the principal national security advisor.
    In other words, there is no effective linkage here. The 
individuals who are involved in the NSC are tremendously 
dedicated--or the individual--but there is no structure here.
    And the reason that we come back to the importance of an 
NSC function and role is that let us say you had a reshaped 
interagency committee that would be brought together on, let us 
pick Lebanon--not to put it in the context of Iraq or 
Afghanistan--and there is a particular issue that needed White 
House attention and resolution and we wanted to bring it back 
to the deputy's process and the principal's process. There is 
no immediate and obvious link back to the NSC process.
    The individual who is responsible for stabilization and 
reconstruction is constantly struggling for a voice internally 
within the NSC and other regional bureaus. You don't get the 
same thing on defense issues, you don't get the same thing on 
intelligence issues, because there is an established office 
there that has greater weight. What we are talking about here 
is a senior director and maybe three directors, not a huge 
structure.
    Ambassador Bodine. Yes. And I would agree with that.
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis of California. I think more of a comment.
    I am really interested, Doctor, in what you were saying 
about the fact that there really aren't any good examples to 
look at, any good models of many of our friends elsewhere. And 
I was struck when we happened to visit the Royal College of 
Defence studies and they were talking about how they pull in 
the military people international to be part of that effort, 
and I asked them, ``Well, what about the diplomatic corps, is 
anybody over there,'' and he said, ``We can't get anybody from 
anywhere, not just the U.S., I mean, anywhere, to do that.'' 
And it is partly because their bench is really tight, and they 
are not able to draw upon people to take that kind of time out.
    The other thing that struck me on our trip to Afghanistan 
last week was that one of the military liaisons happened to be 
an intel officer, and I thought, ``Wow, what are you doing 
here? I would rather have you working on intel.'' He said, 
``Well, you know, it is part of the career ladder, and we have 
to check off this box, basically.''
    That is striking that that is the case, and so I think, you 
know, it is really clear that we don't have that capacity, and 
trying to develop that capacity is a major task.
    You have addressed lots of ways of trying to do that, and I 
think part of our task is trying to figure out, ``Okay, where 
can the Congress really push in that so we don't have the 
situation that we certainly found ourselves in Iraq?''
    I think the one book that struck me, ``Imperial Life in the 
Emerald City,'' and I think by my second or third time it was 
real apparent to me that that was a problem. And that is partly 
where I think a lot of us have come from in trying to figure 
out, ``Okay, how do we get there?'' Because there are a lot of 
wonderful people in this country who would like to be part of 
that effort, but we have to try to find a way to do that.
    Ambassador Bodine. As somebody who was in the Emerald City 
and did not feel that she was living an imperial life at all--
--
    Mrs. Davis of California. No, hardly. I agree with that.
    Ambassador Bodine. I know, and I know the regime, that some 
of that was ironic.
    I think one of the lessons from that was there was an 
active exclusion of career professionals throughout the 
civilian agencies, particularly in the early days in Iraq, and 
I think that comes through very much in that book.
    By and large, State and, you say, people will step up to 
the plate, but to kind of beat the poor sports metaphor to 
death, the bench is very, very shallow. And once you have gone 
through about 2,000 of us, that is it. But some of that, I 
think, also was a reflection of a political decision on who do 
we want to staff these. Again, I think how we vest this and 
congressional oversight as to who is going out to do this is 
important.
    I think another point that is very important is that we not 
think of this solely in terms of crisis response, but we need 
to back this up a little bit as to what kind of structures, 
interagency, funding, staffing, training that we need to get 
into crises, to get into imploding states early enough so that 
the military will be there as providing the security and 
providing some capability and assets that no one else has but 
that we don't have ourselves in the position that the only 
thing we can do is respond to a crisis after the implosion, 
that we can get in there a little bit earlier.
    Ms. Flournoy. Could I just add, I would agree that while 
there is no good model out there that we can replicate in terms 
of somebody who has really got it right, other countries, I do 
think that there is an emerging consensus of at least an 80 
percent solution. I mean, I think most of the things that have 
been said today there is a lot more agreement than there is 
disagreement on at least some of the major elements of reform.
    I just want to make a comment about timing of reform. When 
you have looked historically at major congressional reform, 
whether it was the creation of Special Operations Command, 
whether it was Goldwater-Nichols, there tends to be a pattern 
of acknowledged operational failure at some level.
    A period of serious investigation, which is what you are 
doing right now, and internal dialogue within the Congress 
brought sometimes broader national dialogue on the issue. And 
then reform. And I think we are in that period of we are 
acknowledging, not capital ``F'' failure but recurring failures 
at the operational level that are not exclusive to any 
Administration or any operation. This is a pattern over the 
last 15 years.
    And we are now trying to wrestle with, what do we do about 
it. I think once we are through the, sort of, silly season of 
Presidential campaigns where any mention of anything becomes a 
political football, once we can get back to sort of a rational 
bipartisan discourse, which I applaud this committee for 
hosting, even in the midst of a silly season, I think that in 
the new year there is going to be a real window for action, at 
least to begin down the road of the reforms where there is very 
broad and deep consensus on these are some of the right things 
to do.
    And I would hope that you would, sort of, seize the 
initiative in that timeframe. And I think you are likely to get 
support on the executive side, no matter who comes in as our 
next President.
    Dr. Snyder. Mr. Akin, for five minutes.
    Mr. Akin. Thank you, Mr. Chairman. I share your optimism 
about this as a project, in a way, because, first of all, this 
committee being a subcommittee we operate pretty much not at a 
very political level; we are more into solving problems. And 
there does seem to be, although the committee is not full of 
the members, but the members that are on this committee, 
liberal, conservative, there is the consensus that you need 
decent organization in this area and that things are not right.
    And so that is something that gives us room for optimism 
that in a political world we can put solutions together when 
there is a common understanding of a problem. And that is where 
we do well.
    Of course, the biggest thing working against this is 
somebody has been here for 35 years and they are on life 
support and they are drinking formaldehyde to stay alive and 
they are head of a committee finally and they don't want to 
give up any jurisdiction. That is the surprisingly rigid 
structure that Congress has, politically.
    There are a couple of different things I need some help on. 
The first is, I am just trying to think of America as it 
relates to foreign countries. I am trying to get up at the 
50,000-foot kind of level. And, in general, I think of the 
point person for America in a foreign country as being the 
ambassador, and yet we also have different locations around the 
globe where the 7th fleet has a command vessel and that is the 
center of military, sort of, organization for a geographic 
area.
    Then we have these--you know, we now just made Africa, and 
we have Europe and all this. So you have this, sort of, DOD 
piece of it as well.
    I am trying to picture from an organizational point of 
view--I would think, first of all, it would be logical that if 
I am some government person in a foreign country, it would be 
nice to know who is the point man for America. I mean, I would 
think that would--you need to have, sort of, a single person 
who is the top. And then it would seem like to me how that 
then--I am trying to figure in my own mind if you were the 
executive, how would you set that structure up? That was my 
first question.
    My second question is, Goldwater-Nichols we did jointness.
    I think it was, Ms. Flournoy, you mentioned something about 
incentives. You get promoted. Promoted? Now, you have got my 
attention. You create incentives so that people need certain 
spots in their careers.
    It seemed to me that we had jointness between Navy and Army 
and those other kinds of things. Does it make sense to have 
that same jointness so that State Department literally trains 
with the military and the military trains with State, to a 
certain degree, so that there is, sort of, at least awareness 
of the structure that the other people are coming from?
    Does it make sense that in State Department that you have 
at least a section of State where people are told, ``Something 
has just happened in this country and you are going over 
there,'' not asking if you are going over there. This is one of 
those things, ``America needs you,'' just the same as the 
military.
    Do we need to have at least certain people that volunteer 
for that type of service? I am not saying everybody in State 
would want to do that but that there would be at least teams or 
groups of people that would say, ``This is what I signed up 
for.''
    So that is my question.
    What is the interface with a foreign country and the U.S. 
government? What does that look like, and then how do you build 
that jointness?
    Thank you.
    Ambassador Pascual. Maybe if I might pick up on the first 
point, a little bit on both points. On the point person in 
another country, Barbara is--since both of us have ambassador 
at the start of our titles from previous incarnations, I mean 
there is one place in U.S. legislation where there is one 
individual who is the President's representative and is 
responsible for representing the United States, and overseas 
that is the ambassador.
    There are tensions with that. I will tell you, when the 
head of European Command flies into your country and has an 
aircraft and comes in with about 15, 20 military along with 
him, they look at the ambassador and they, sort of, look at, 
``Where is your army?'' And it does create a striking 
difference. And so there is an issue there with resources.
    But I think that one of the things that we stand for as a 
country is civilian control of the military, and if we want 
other countries to abide by that, we have to practice what we 
preach. And if we put the military in control of an interagency 
process that is looking at the future construction of a 
country, then we are simply violating something that we don't 
stand for, and we are setting an example that many countries 
are all too happy to follow. And so I think reinforcing the 
civilian capacity is absolutely critical.
    On the issue of how you create that jointness, this is one 
of the reasons why all of us have talked about some reserve 
capability, and I think that the creation of what the State 
Department has proposed as the active response corps is so key. 
Because it basically puts people in the jobs where their 
responsibility for two years in that job is to engage in 
training and operations where they are ready to move and deploy 
immediately when they are necessary. And in the meantime, they 
have a regular day job, so if they are not being deployed, they 
would work on conflict prevention in Africa, for example.
    And you are not then looking at where those teams are going 
to come from in order to do it. These are the individuals who 
also can be engaged in more effective joint exercises with the 
military.
    When I was the head of S/CRS, one of the things that we 
tried to do was a lot of exercises with the military. We had 
some great exercises. In Southern Command, the experience that 
we had, in some cases, was they were saying by the extent of 
interagency engagement that they had, it became the most 
realistic planning process that they had actually ever gone 
through.
    But the problem is that we just don't have the numbers of 
people to keep up with the military and these kinds of planning 
processes, and so I think if there can be the resources made 
available to in fact actually create this active corps, then 
that is what is necessary to in fact also create jointness and 
make it a much more viable concept.
    Ambassador Bodine. As the other person sitting up here with 
A-M-B as her first name, I would very much support what Carlos 
just said. There is a big difference, on the civilian lead and 
all of that, between ambassadors and Commanders in Chief 
(CINCs), having served and worked out in the region.
    The CINC flies in with his own airplane and all of his 
staff and everything else, and there is a great big ship off 
your coast. And that is nice. His idea of engagement is 24 
hours on the ground and me taking him around and a dinner 
party.
    My job is to be there for four years, on the ground, every 
day. My staff is there, on the ground, every day. And so when 
the government is thinking about who they should be dealing 
with, who is representing the President's representative but 
also interagency, and even a very small embassy is interagency.
    That is where they look and that is where they should look, 
and that is where we should encourage them to look. And to the 
extent that we start projecting that there is an alternative to 
the ambassador, we start breaking this down very badly. It was 
a discussion that I had with a number of CINCs is, ``We are 
here every single day and meeting with the minister of defense 
is not engagement.'' So the----
    Mr. Akin. Could I stop you just a second, because I just 
came back from over in Japan and South Korea----
    Ambassador Bodine. Yes, right.
    Mr. Akin [continuing]. Two different countries but in a way 
there are some similarities here. I am picturing part of the 
value of our relations with those countries, as they add a 
tremendous level of stability to a region that might not be so 
stable, particularly with China there, but, certainly, North 
Korea.
    Now, from a geopolitical point of view, if we have joint 
military operations with Japan and we have joint military 
operations with South Korea, that provides not only additional 
capability militarily----
    Ambassador Bodine. Right.
    Mr. Akin [continuing]. But it helps bring those countries, 
kind of, up to speed in their military capability.
    So I am thinking, okay, now I am the commander in chief and 
I have got these military things going, and that can overshadow 
what is happening over at State.
    So how do you see those kinds of--because that is a very 
valuable type of outreach to build contact with----
    Ambassador Bodine. Oh, it is a critical outreach, and in 
very poor countries where I have served, for example, the 
military's ability to come in and do Medical Civic Action 
Programs (MEDCAPs) and Dental Civic Action Programs (DENTCAPs) 
and Veterinary Civic Action Programs (VETCAPs), and all of this 
other kind of thing, was critically important. This was very 
useful training. But it is an element of a relationship----
    Mr. Akin. Right.
    Ambassador Bodine [continuing]. And one of the jobs that we 
have to do as ambassadors and as State is also to get those 
kinds of assets and resources coordinated with what we are 
doing more broadly and not think that they are a substitute. As 
I said earlier, it is nice to come in and vaccinate the goats, 
but I need an AID presence that is large enough, flexible 
enough and funded enough that I can help the Yemenis develop a 
veterinary service. The joint exercises are great but they are 
not a substitute; they are a part.
    Mr. Akin. Sure.
    Ambassador Bodine. I found in my career in the Middle East 
that the relationships with the CINCs was a very close one, 
very supportive, very constructive, very mutually reinforcing. 
I did not see him as a competitor, largely because I assumed my 
position. And in most cases, they didn't really see it as an 
either/or. We don't want to do something that starts setting it 
up as a parallel.
    And this gets back to what I was talking about as supported 
and supporting commands. This is a concept the military is very 
comfortable with.
    On the incentives----
    Mr. Akin. Well, so that is helpful for me to know that, 
that the CINCs understand the need to have you there and for 
you to coach them in the culture and----
    Ambassador Bodine. Absolutely. I mean, you know, we are 
sending out briefing memos before they arrive, they get off the 
plane, we are talking to them in a car, ``This is who you need 
to meet with, this is who you need to talk about, this is what 
you need to do, this is what I need from you, this is what I 
can do for you.'' And I have probably worked with ten different 
central command CINCs, and in almost all cases, it was a very 
good supportive relationship where we worked closely and came 
up with some great things.
    I want to say, the incentives are a great idea but not 
melding, not the idea that we are going to homogenize these. I 
would say from, again, my personal experience is that people in 
the State Department want to do this training, want to do these 
exercises, would like to do the outreach. We just simply don't 
have the personnel to do it. There is not an institutional 
aversion to it, it is just there are only 7,000.
    Ms. Flournoy. I hesitate to comment on the first issue, 
because I am not an ambassador, but through my observation I 
think where there is room for improvement is in some of the, 
sort of, strategic planning or absence thereof that goes on on 
an interagency basis for what is it the U.S. is trying to do, 
in a given country, over a given period of time and to try to 
strengthen the interagency dialogue on those issues at the 
country level and then at the regional level.
    You see a lot of ad hoc activity where the combatant 
command (COCOM) because it is the entity that is in the region 
at that level will invite ambassadors of the region to a 
conference to talk for what it is we are trying to achieve. I 
would love to see that kind of thing hosted by a civilian 
entity.
    But I think there is room for improvement in more, sort 
of--beyond crisis response, more strategic planning at the 
regional level.
    I also think that you are seeing here, too, pretty 
exceptional ambassadors who understood that their job was to 
lead interagency country teams, lead interagency teams to get 
jobs done. I don't think that is universally true. The best 
ambassadors understand that. I don't know that we always 
prepare everyone who takes the position of ambassador to 
understand you are not just the State Department 
representative, you are not just a political representative for 
the President, but you are the interagency integrator for this 
country.
    On the incentives piece, I mean, we have talked about how 
to incentivize the civilian side, whether it is pay incentives 
or promotion incentives, other type of things. There is lots 
that can be done there.
    I just wanted for this committee to also highlight 
something on the military side. Right now--and this is probably 
a larger discussion to be had with Chairman Skelton--right now, 
we define very narrowly the particular positions for which a 
military officer can get joint credit. So there are lots of 
seriously joint and interagency experiences that people are 
having on Joint Task Force (JTF) staffs, on COCOM staffs, on 
interagency staffs where you have officers spending two and 
three years doing these highly interagency things but not 
getting joint credit for it.
    I think given the increasing number of demands we are 
putting on officers to collect all these brass rings and then 
make it to general officer, increasingly packed in a short 
amount of time, one of the things we should look at is opening 
up the list of things that count as joint credit, to include, I 
would argue, more interagency experiences so that you would 
also incentivize more participation on the military side to 
come over to civilian agencies, to come over to predominantly 
civilian staffs and interagency staffs.
    Dr. Bensahel. Just quickly, on your second question, the 
issue of establishing the right incentives, in my mind, is the 
only way to effectively address the interagency problems, 
because you can't legislate cooperation, you can't change an 
agency's culture. The only thing that you can do is make it in 
their interest to do what you want them to do. And that applies 
at all levels.
    There need to be incentives created for agencies to 
cooperate with each other bilaterally, not just through the 
direction of the NSC, but through some bilateral--lateral, I 
should say, mechanism. There need to be incentives for agencies 
to let their personnel participate, particularly in field 
deployments, as I described before. But then also there needs 
to be the right incentives, as Michele has addressed, for 
individuals to volunteer and for them to have the right career 
progress ahead of them so that undertaking these kinds of 
operations and experiences is not detrimental to them. You need 
the incentives to be lined up at all levels in order to 
mitigate some of the worst aspects of interagency competition.
    Mr. Akin. Thank you.
    Dr. Snyder. If you can hang on for about ten more minutes, 
I will take five minutes and we will go to Mr. Davis for five 
minutes, and then we will be right about lunchtime.
    I wanted to share a quick anecdote, as we are talking about 
the ambassador on the ground. I think what your phrase was--Ms. 
Fournoy, you referred to the ambassador as being the 
interagency facilitator or someone like that.
    Some years ago, I visited Sierra Leone right as the U.N. 
troops were going out at the end of that war to be 
peacekeepers, and Joe Melrose was our ambassador there. And 
there was, I think, a 200-Brit military force that was 
providing training for the new Sierra Leone army, and there 
were three U.S. troops there so that it was a joint training 
force.
    And one of them was a Marine--I have two marines on my 
staff sitting in the back, so probably why I am telling this 
story. This young marine was a tough guy and literally when he 
arrived by helicopter into Sierra Leone he was with a women in 
her 60's who was working for an American NGO, she was an 
American citizen, who was wearing a neck brace. They got off 
the helicopter, she got into a private car and went to her 
place outside of Freetown where she was going to live and work 
some time.
    That marine, because of the Marine Corps rules, could not 
leave Freetown overnight, and it just frustrated--and 
Ambassador Melrose did not have the authority to make that 
decision. It was fine with him that that marine go outside of 
the area. And I don't want to take my time for a comment on 
that, but it really brought home the intricacies of some of 
these relationships that can mess up the ability to fulfill a 
mission. We got that corrected, but it shouldn't have been 
corrected by a Member of Congress.
    I wanted to make one comment, Ms. Flournoy, and then ask a 
question. You referred to the Presidential campaign as a the 
silly season.
    Ms. Flournoy. I am sorry.
    Dr. Snyder. I want to pick on you about that.
    Ms. Flournoy. In a moment of too much candor, I am afraid.
    Dr. Snyder. It is the most vital part of this country's 
democracy. It has its moments of silliness, but it is not the 
silly season. And if we think that we can come back in January 
or February or March of next year as Members of Congress and do 
some kind of dramatic first change in 50 years in how national 
security policy is made and conducted and not one Presidential 
candidate talk about these issues between now and November, or 
November and swearing in, or no mention or reference in the 
inaugural speech, I think that is going to be tough.
    I was struck last night, and disappointed last night. In 
fact, I, publicly, at our last full committee hearing when 
Secretary Gates testified, I pulled out his Kansas State speech 
and said, ``Mr. Secretary, this is a great basis for an 
inaugural speech,'' which is a wonderful way to flatter people, 
right. He got all flustered because he doesn't want to have 
anything to do with that. But it is. It is talking about a 
vision for the future of American national security.
    Last night, we got a mention of the PRTs by the President, 
but there was no mention about, ``let us pull together and set 
this up for our next President. We have got some problems, 
institutional problems that the Clinton Administration had, 
that this Administration has had. Why not spend this year--we 
have got Mr. Davis and Mrs. Davis working together, we have got 
others working together. Why not spend the next 10 or 12 months 
and work on that issue together in a non-partisan, bipartisan 
way?''
    It didn't get a mention.
    So I am not coming down on you hard, Ms. Flournoy, but I 
think part of our job, and I would hope part of your job, is to 
make this issue part of this Presidential campaign in some 
capacity, in some way, because, otherwise, to think that we can 
somehow hatch an egg out with the limited resources we have 
come January of next year that has not been--what is the word 
for keeping the egg warm--incubated, that is going to be a 
tough----
    Ms. Flournoy. Sir, I apologize for my moment of sarcasm, 
but in terms of actions speaking louder than words, these 
recommendations came out of Beyond Goldwater-Nichols work that 
I have done. And I have personally briefed three, and hoping to 
get to at least four, of the major candidates, two on each 
side, on exactly these issues.
    So I am, my comment aside, taking it very seriously.
    We don't want this to become a partisan issue was my point, 
a political football, but we want every candidate to agree that 
this is good governance for the United States.
    Dr. Snyder. I would love to see the candidates fight over 
what they think is the best way to bring about interagency 
reform.
    Ms. Flournoy. Right.
    Dr. Snyder. I think that would be a wonderful discussion 
and debate to have. And it may have its moments of silliness, 
but I think it is--I appreciate you doing that, because if we 
think this issue is important, then we ought to have people 
standing up at these town meetings and saying, ``What about 
interagency reform?'' Now, that is probably not going to 
happen, but there will be moments of serious foreign policy 
discussions, and I would hope that these would come up.
    I want to ask Dr. Bensahel, in just the remaining few 
seconds I have, you said you can't change culture. I think you 
can change culture. I mean, culture is set by leadership. Bad 
culture is bad habit, and I think there are a variety of ways 
that you can change the culture of an institution if you decide 
that is important to change that culture and that culture is 
hurting. And part of it is just educating people that that 
culture is hurting.
    I think that is the strength of Secretary Gates' speech. 
What it said is that there is this sense going on within the 
Pentagon that says, ``Something ain't right, and it may not all 
be us.'' And there is a changing culture. Who would have 
thought that we would have a secretary of defense making the 
most eloquent statement we have had in the last several years 
about why we need to do something for State Department funding. 
So I think that is a change of culture.
    Mr. Davis, for five minutes, and then we would better let 
you all go to lunch.
    Mr. Davis of Kentucky. Just taking from Chairman Snyder's 
comments, I have talked to several of the Presidential 
candidates, and I began this effort a year ago. I know there 
are other fellow travelers in this that are raising the issue 
as well. And in the early discussions, it was very clear that 
they, in many cases, did not have a clue that this was a 
critical issue. Some have been successful executives and they 
think, ``Oh, my personality will do this,'' not understanding 
the process.
    To Dr. Bensahel's comment on not having incentives to 
change, in the corporate sector, the incentive is continued 
employment, and I think that the models to look to for radical 
institutional change to adapt to the marketplace is to go out 
into the commercial world.
    If you look at what Motorola did, if you look at how 
Toyota, this young, provocative upstart came in and forced the 
transformation of American manufacturing because of an entirely 
different paradigm.
    What they were able to do, from a conceptual or a spatial 
standpoint, is accomplish exactly what we are talking about 
today. Is it perfect? By no means. There are always the 
challenges that you face.
    I think what drove that, having seen part of that from the 
inside in the manufacturing world, it is the old statement, 
``The greatest source of inspiration is desperation,'' when you 
realize there is a need to change.
    Speaking of silly season as an aside, there is one. Come 
visit my primary in the spring with the person who rides on 
UFOs and the indicted felon. I think I can win in a three-way, 
but it is going to be a very interesting few months. 
[Laughter.]
    But back to the--I just wanted to salve your wound there 
for a moment. [Laughter.]
    But coming back to this issue, I traveled to the Middle 
East with some of the marines sitting in the back of the room, 
and for an Army guy that is a tough thing anyway, but I have to 
tell you, talking to every one of them, this issue, interagency 
reform is the issue, every service group that I have been with 
it is being talked about here in the Armed Services Committee 
based on that old desperation to address the ultimate root 
cause. Foreign Affairs hasn't had an authorization in, what, 12 
years?
    Ambassador Bodine. Yes.
    Mr. Davis of Kentucky. Fourteen years?
    Ambassador Bodine. And when we get it it is----
    Mr. Davis of Kentucky. Yes. I mean, because they are 
giving--and I think it is just a misguided priority, frankly, 
of just talking about resolutions of things that probably 
create things for you all to do on crisis messaging and things 
like that in different parts of the world.
    At the end of the day, there are a lot of members on that 
committee in a wide number that want to see these types of 
changes that we have seen in the interagency reform caucus 
group that has been recruited on both sides--some folks who 
can't even be in a room together on any other issue but at 
least they will agree on this.
    And the issue of the NSC--and this is really where I would 
like folks to comment for a moment--the one area of objection 
that we had from the Project for National Security Reform 
study, which I think some of you are participating in that 
great collection of talents to direct it--a stumbling block to 
getting that done last January and February when we were in 
hearings in the full committee, it was very clear it was the 
National Security Council staff with the objection points to 
preventing that study from going forward when we were going to 
talk about probably 23 different case studies that showed this 
process problem that is very embedded.
    We finally got around that, but I think the agency itself 
is its own kind of shadow for--the organization is its own kind 
of shadow agency. I have even seen visa problems fixed going 
through the NSC. I don't want to even know how that happened. 
But got the problem fixed.
    But, nonetheless, there is a process unto itself. And this 
integration, I think, is going to be critical at the end of the 
day.
    I would highly encourage the folks in the corporate world 
who have done this to come into the dialogue, specifically 
since 50 of the largest 100 economies in the world are 
companies. Wal-Mart, if it were a nation, is the eighth largest 
trading partner of China. And I am not advocating copying all 
their marketing practices and things like this, but it is this 
constant adaptation and integration to change that would be of 
value.
    One thing that I would ask you to comment on, and this 
might be the radical question, what about moving to a point to 
have the integration change in the commands themselves, to go 
to something very hybrid and different, to, for example, in an 
Africa command, we have an integrated, diplomatic and military 
response, to have the first or second person, depending on what 
has to be the more lead focus, to be a civilian working hand in 
hand with the military?
    And if it switches to the other way, then, obviously, some 
adaptation, but maintaining maybe a tighter integration so you 
don't have, kind of, a pro-consul on one side with his 
patrolling guard and centurions all around him and then the 
poor diplomat in the toga hitching a ride on the chariot as he 
is coming by, going off to the crisis. [Laughter.]
    Ambassador Bodine. I do applaud that with African Command 
(AFRICOM) that a State Department person is the number two, and 
I think that that is, in many ways, an improvement over the 
political advisor position, which is what we normally have, 
which was extremely personality dependent. If the commander 
chose to listen to the POLAD, it was great, and if they didn't, 
there really wasn't anything to do.
    I would certainly not want this to be seen as a substitute 
or, to go back, an infringement on the ambassador's 
prerogatives. They have a regional focus; they don't have a 
day-to-day, on-the-ground capability. I think that that is an 
improvement but we have to be very careful that we avoid what 
Carlos so eloquently talked about is both the perception and, 
in some cases, the reality that we are leading with our 
military in too many aspects of our foreign policy abroad. 
There are a lot of reasons that we shouldn't be doing that.
    And, again, sort of, getting into this supported-supporting 
command issue is an important one on how we conduct ourselves, 
how we manage the resources, what kind of a message that we are 
giving. I think it is an improvement.
    I would like just very quickly on your deployment story 
from Sierra Leone, that is one issue that I did have with 
regional commanders is that they were making decisions on who 
could come into my country and do what, in many cases, overrode 
my own judgments and my own--and they were defining deployed 
forces not as something like the photograph behind you, which 
anybody would understand that what goes on in Afghanistan and 
Iraq is deployed forces, but two guys from the Coast Guard in 
polo shirt and Dockers who were going to come in, work out of 
my embassy and work on a Coast Guard for the Yemenis was 
suddenly declared to be a deployed force. And I lost control 
over when and how these people could come in. And at that 
point, it started to become--we were not working as well 
together.
    Ms. Flournoy. Sir, If I might just add, one of the things I 
have recommended in past work is thinking about the notion of 
regional security councils where you would have an interagency 
entity--might be physical, might be virtual--but with an 
original ambassador appointed, whose job is not to usurp the 
authorities of the country ambassadors but really to have a 
full-time job of coordination. There are so many of these, 
whether terrorists, weapons of mass destruction (WMD)--I mean, 
pick your issue, it is very difficult to work these country by 
country. The things flow across borders very quickly in terms 
of what we need to contend with.
    And I know that, actually, Ambassador Pascual has played a 
regional ambassador role before, so maybe he will comment on 
this, but I think having an interagency entity that is not just 
ad hoc but meets on a regular basis to try to work the regional 
integration issues would be very useful. The key would be, can 
you do it without it just becoming another layer of 
bureaucracy, which would not be helpful.
    Ambassador Pascual. I think one of the strengths that we 
have had as a country is our embassy presence and at one time 
our USAID presence around the world, and a lot of that has 
shrunk, particularly USAID has shrunk.
    And one of the things, I think, that was driving Secretary 
Gates' statement is a recognition that in a world that is 
becoming increasingly complex, we need individuals who are 
posted on the ground with historical and language and cultural 
knowledge to be able to understand what the problems are to 
design solutions and to oversee their implementation. And you 
only get that with a deployed capacity.
    One of the things I would just underscore is that 
strengthening the capacity to have that country-specific 
understanding and knowledge is still key and is still a central 
part of our national security requirement and it is a role that 
I think an ambassador heads up, but it requires a whole 
interagency involvement.
    I think that there is a strong rationale for having a 
stronger and better integrated regional function, because, as 
Michele just said, many of the problems that you are dealing 
with are transnational, whether it is transnational terrorism 
or risk of proliferation or the role that insurgents play 
across country, the inner linkages you have between drug trades 
and insurgency. You need to look at these across countries.
    And so having a capacity to have a strategic vision in that 
way I think makes a lot of sense. How you organize it and 
whether you put it into a combatant command is worth debating, 
and it gets at this question of who is leading and who is 
driving U.S. policy. But I think that the question needs to be 
asked.
    A point that I would underscore, Mr. Chairman, in changing 
culture is the importance of leadership. And as you just said, 
Secretary Gates, in his leadership, has played a fundamental 
role in changing the way that people think about the 
interagency and the integration of civilian and military 
functions.
    And if we bring this back to the NSC, you know, we have had 
NSCs of Henry Kissinger and Brent Scowcroft and Sandy Berger 
and Tony Lake and Condi Rice, and those are fundamentally 
different entities and structures, and what it reflects is that 
depending on the leadership that you have at the top, you can 
get very different results.
    And so the kind of oversight that you provide of the 
interagency process--and here I understand your frustration, 
you can't call a national security advisor in to testify--but 
it is absolutely necessary to continue to have that check and 
balance.
    The final point I would just make is that weak as some of 
the international experiments might be--and Nora did a great 
job of laying out what some of the problems are--you still have 
in the EU a reserve mechanism that has 200 monitors, 200 
judges, 200 administrators, 5,000 police. The Germans have a 
reserve mechanism that they run through an NGO called ZIF. The 
Canadians have a $140 million conflict response fund. Even the 
U.N. has a $250 million respond fund for peace-building, which 
we, by the way, do not contribute a penny to right now.
    Others are getting out there and doing this, and we are 
falling behind in the kind of experimentation that we are 
doing, because we are not putting forward the resources.
    Dr. Snyder. Dr. Bensahel, would you like the last word?
    Dr. Bensahel. Yes, please.
    Dr. Snyder. Go ahead.
    Dr. Bensahel. A final note on the changing of 
organizational cultures. Of course, it is possible to change 
them. What I meant to emphasize is, it is almost impossible to 
do from the outside. It really comes from the leadership of 
those organizations and has to filter down from the top to 
people throughout the agency.
    It is also very important for people within an organization 
to believe that something fundamentally wrong is happening, 
whether it is failure or desperation, that the current way of 
conducting business is not succeeding and something needs to be 
changed.
    And I think that now you are seeing that within the 
Department of Defense, not just within the leadership but among 
the soldiers who are on the ground and conducting U.S. 
operations.
    I think in 2004-2005, the early-ish days of deployments in 
Iraq, what you heard from a lot of soldiers who had on-the-
ground experience was that the military could solve these 
problems. ``If the State Department isn't coming, if civilian 
authorities aren't coming, we are just going to have to do it 
ourselves.''
    And I think we have seen a very profound shift in the last 
year or two to statements from people from the very top, from 
Secretary Gates on down to privates who are coming back from 
deployment, saying, ``That is not the solution. We can't do it, 
we need help to do it. The only solution is to build up 
civilian capacity.''
    That is a very powerful message being sent from the people 
that we are asking to go serve the country and conduct these 
operations. And I think that because that culture is changing 
within that organization from a perceived failure to succeed, 
as much as perhaps could be the case, we may get some impetus 
for reform.
    Dr. Snyder. Thank you all for being here. I will give you 
the opportunity as a question from me for the record, if you 
all have any additional written comments you would like to 
make, you have, I don't know, some time to submit those to 
staff, and we will include those as part of the record and 
distribute them to the committee staff.
    Thank you all again for being here. This committee stands 
adjourned.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            January 29, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 29, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2901.001
    
    [GRAPHIC] [TIFF OMITTED] T2901.002
    
    [GRAPHIC] [TIFF OMITTED] T2901.003
    
    [GRAPHIC] [TIFF OMITTED] T2901.004
    
    [GRAPHIC] [TIFF OMITTED] T2901.005
    
    [GRAPHIC] [TIFF OMITTED] T2901.006
    
    [GRAPHIC] [TIFF OMITTED] T2901.007
    
    [GRAPHIC] [TIFF OMITTED] T2901.008
    
    [GRAPHIC] [TIFF OMITTED] T2901.009
    
    [GRAPHIC] [TIFF OMITTED] T2901.010
    
    [GRAPHIC] [TIFF OMITTED] T2901.011
    
    [GRAPHIC] [TIFF OMITTED] T2901.012
    
    [GRAPHIC] [TIFF OMITTED] T2901.013
    
    [GRAPHIC] [TIFF OMITTED] T2901.014
    
    [GRAPHIC] [TIFF OMITTED] T2901.015
    
    [GRAPHIC] [TIFF OMITTED] T2901.016
    
    [GRAPHIC] [TIFF OMITTED] T2901.017
    
    [GRAPHIC] [TIFF OMITTED] T2901.018
    
    [GRAPHIC] [TIFF OMITTED] T2901.019
    
    [GRAPHIC] [TIFF OMITTED] T2901.020
    
    [GRAPHIC] [TIFF OMITTED] T2901.021
    
    [GRAPHIC] [TIFF OMITTED] T2901.022
    
    [GRAPHIC] [TIFF OMITTED] T2901.023
    
    [GRAPHIC] [TIFF OMITTED] T2901.024
    
    [GRAPHIC] [TIFF OMITTED] T2901.025
    
    [GRAPHIC] [TIFF OMITTED] T2901.026
    
    [GRAPHIC] [TIFF OMITTED] T2901.027
    
    [GRAPHIC] [TIFF OMITTED] T2901.028
    
    [GRAPHIC] [TIFF OMITTED] T2901.029
    
    [GRAPHIC] [TIFF OMITTED] T2901.030
    
    [GRAPHIC] [TIFF OMITTED] T2901.031
    
    [GRAPHIC] [TIFF OMITTED] T2901.032
    
    [GRAPHIC] [TIFF OMITTED] T2901.033
    
    [GRAPHIC] [TIFF OMITTED] T2901.034
    
    [GRAPHIC] [TIFF OMITTED] T2901.035
    
    [GRAPHIC] [TIFF OMITTED] T2901.036
    
    [GRAPHIC] [TIFF OMITTED] T2901.037
    
    [GRAPHIC] [TIFF OMITTED] T2901.038
    
    [GRAPHIC] [TIFF OMITTED] T2901.039
    
    [GRAPHIC] [TIFF OMITTED] T2901.040
    
    [GRAPHIC] [TIFF OMITTED] T2901.041
    
    [GRAPHIC] [TIFF OMITTED] T2901.042
    
    [GRAPHIC] [TIFF OMITTED] T2901.043
    
    [GRAPHIC] [TIFF OMITTED] T2901.044
    
    [GRAPHIC] [TIFF OMITTED] T2901.045
    
    [GRAPHIC] [TIFF OMITTED] T2901.046
    
    [GRAPHIC] [TIFF OMITTED] T2901.047
    
    [GRAPHIC] [TIFF OMITTED] T2901.048
    
    [GRAPHIC] [TIFF OMITTED] T2901.049
    
    [GRAPHIC] [TIFF OMITTED] T2901.050
    
    [GRAPHIC] [TIFF OMITTED] T2901.051
    
    [GRAPHIC] [TIFF OMITTED] T2901.052
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 29, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. CONAWAY

    Mr. Conaway. You asked a very important question about the 
effectiveness of interagency coordination and collaboration during 
real-world operations if it is not practiced at home. Obviously, the 
ability to coordinate effectively is severely degraded when not 
practiced sufficiently prior to deployment. But the opportunities for 
that very training exist today. Actually, interagency workshops in 2006 
developed an agreement among DoD, DoS, and USAID to implement SSTR 
training initiatives (specifically regarding PRTs) that would integrate 
the appropriate USG agencies into DoD pre-deployment training.
    Do you have any knowledge of the progress of this integrated 
training? Are there examples where it's working well? If not, what are 
the challenges that continue to prevent this invaluable opportunity?
    Ambassador Bodine. There has been progress on interagency pre-
deployment training and other steps taken toward improving interagency 
cooperation and collaboration, many run out of the NSPD-44 Training 
Workshop ``Training, Education, Exercises and Experimentation'' co-
chaired by State/S/CRS, DOD and USAID.
    In talking with those most directly involved, there is broad 
agreement that the introduction of training, education and lessons 
learned has improved the effectiveness of those in the field, and that 
with each training iteration; the training becomes more relevant to 
those to be deployed. There is also broad agreement that there are 
serious challenges that need to be addressed if the USG is going to 
realize the full potential of these changes, not just for the PRTs and 
not just for Iraq and Afghanistan, but our ability to respond quickly 
and effectively in future post-conflict, pre-conflict and disaster 
situations. We need to not only figure out how to do Iraq (and 
Afghanistan) better, but how to avoid the next Iraq.
    Some of the positive steps taken to date include:

      >  Interagency PRT Training: Includes Iraq pre-deployment 
training coordinated through State's Foreign Service Institute and 
Afghanistan training at Ft. Bragg. Each offering of these courses works 
to improve on the strengths and grow beyond the weaknesses of the 
previous offering, with feedback from recent graduates.

      >  A host of war colleges and institutes--NDU, PKSOI, Army War 
College, and Naval Post-graduate--have done a variety of interagency 
training, simulations etc. on the gamut of R&S issues.

      >  Exercises: The military has long included civilian agency 
personnel in its exercises. I personally participated in a number well 
over ten years ago with both the Army and the Marine Corps. This has 
ramped up considerably in recent years and State/S/CRS regularly 
participates in at least four large integrated exercises. These 
include:

        <all>  United Action: One of the first to include State/S/CRS 
in the planning stages, it focuses on the three D's (defense, 
development and diplomacy) and covers the spectrum of conflict 
prevention to post-conflict.

        <all>  Multinational Experiment-5 (MNE-5): Focuses on 
multinational, interagency, comprehensive engagement and includes 
government, non-governmental and others. Includes crisis prevention.

        <all>  Blue Advance: A SouthCom initiative that has in recent 
years sought increased civilian participation. State/S/CRS had a team 
of 84 civilians at the last Blue Advance.

        <all>  Certain Trust: For newly-minted civilian affairs 
officers at Ft. Bragg, it mimics field-level interaction one might find 
in a PRT.

    All of this is quite impressive, especially on paper, and certainly 
speaks to recognition on the part of the military that they need to 
train and exercise for an interagency environment and for non-kinetic 
operations. This is all to the good. In talking with a number of 
military officers and others involved, these and other opportunities 
all enhance the military's understanding and appreciate of the 
capabilities, organization, skill sets, mind sets of their civilian 
agency and, in some cases, NGO counterparts.
    As one military officer described it, it reminds us we are all one 
government, that we each have strengths and weaknesses, and that 
together we can build on the strengths and cover/compensate for the 
others (including the military's) weaknesses. As someone who has done 
civilian-military work her entire career, as has this army officer, it 
is reassuring to see that the mutual respect and sense of shared 
professionalism was being reinstilled in younger generations of 
civilian and military officers as an antidote to the culture of 
misperception and suspicion that had begun to grow in the past several 
years. This is without question important and perhaps of far greater 
lasting value than any Iraq or Afghanistan-specific training, however 
vital that is.

The Challenges:

    This significant up-tic in interagency training and exercises is 
overwhelming, literally. It has become a beast the civilian world can 
barely begin to feed, and certainly cannot feed, continue its day-to-
day functions and operations and address its own crisis prevention and 
response requirements.

        <all>  There simply are not enough civilians to meet the 
military's demand.

        <all>  There is no ``one-stop shop'' for PRT (or related) 
training. Each agency has its own programs, timelines etc. There is a 
central issue of a lack of overarching and sustained leadership.

        <all>  Iraq and Afghanistan training programs are not formally 
connected. Iraq joint training occurred only with the start of the 
surge. The State/NEA run program can best be described as ``in flux.''

        <all>  Inadequate and uncoordinated use of human resources to 
design and deliver training exacerbated by the multiplicity of 
providers among and within agencies and divergent goals and operational 
and institutional needs.

        <all>  Most training is designed/scheduled to meet military 
deployment cycles and needs, which do not necessarily correspond with 
civilian cycles.

        <all>  Much of the pre-deployment training is of very short 
duration--less than a month--which is insufficient to build the full 
level of understanding needed for seamless collaboration, or 
understanding of the field environment. (See, for example, the training 
provided for CORDS/Vietnam).

        <all>  Since the planning and design is often done to meet 
military operational needs, and since there are not enough civilians to 
participate in the design phase, the training is less relevant to 
civilian needs than it could be. Thus, civilians may end up playing 
roles rather than acting as participants. Such role playing, while of 
some benefit to the military participants, draw civilians away from 
their own readiness requirements.

        <all>  Most of the training is crisis/operational driven. Of 
the three D's, ``defense'' is largely short-term, immediate and 
kinetic, while ``diplomacy and development'' are long-term, incremental 
and non-kinetic.

Some Efforts to Address These Issues:

    The fundamental difference between the military's short-term/pre-
deployment needs and timelines, the ``urgent'' (Iraq and Afghanistan), 
and the civilian/interagency need to prepare for the ``important'' (the 
ability to respond the next crises and conflicts) is, of course, the 
essence of the need for greater training toward the goal of greater 
collaboration, and its fundamental challenge. In talking with both 
civilians and military involved, there is a recognition that some 
rationalization of training and exercises needs to be done to both 
optimize its effectiveness and relevance for all parties, and to 
address the staffing, time and resource constraints on the civilian 
side. A pre-deployment driven training and exercise agenda drains the 
civilian side of highly limited resources without necessarily meeting 
the needs of those same personnel nor does it necessarily build a more 
sustainable structure of crisis identification, pre-emption and 
preparedness on the civilian side. (It goes without saying that the 
civilian side of the equation needs an equitable ramp-up on resources).
    The operations-centric training needs to be reoriented or at least 
balanced with interagency training and acculturalization on pace and 
needs of ``diplomacy and development'' and how ``defense'' can be 
integrated into this longer-range dynamic. This is the very dynamic 
that is at the core of crisis prevention and crisis mitigation as well 
as post-conflict stabilization.
    Two related initiatives have begun to address this more fundamental 
difference and the need to look beyond and prepare for the next crises. 
One, the Center for Complex Operations (CCO), which includes 
representatives from State/S/CRS, State/PM, USAID and DOD (civilian and 
uniformed military and PKSOI), recently began work on lessons learned 
from existing PRT efforts with the goal to improve training and 
operations and, perhaps more importantly, develop new doctrine which 
can be supported by a structure properly resourced and staffed . . . . 
and then trained to. Right now, we are doing this in reverse and 
building backwards.
    The second, the Reconstruction and Stabilization (R&S) training 
strategy began in late 2005 under State/S/CRS resulted in seven course 
offerings for interagency participants at State's FSI. The Stability 
Operations Division, originally at S/CRS and now at FSI, emphasizes 
integrated, one-government approaches to conflict assessment, strategic 
and implementation planning and conduct of stability operations beyond 
Afghanistan, Iraq or PRTs. This is being updated through the Training 
Workshop and will be revised following a comprehensive survey of all 
offered R&S courses, currently underway by the CCO and the US Institute 
of Peace.
    Mr. Conaway. Many of the recommendations to integrate a form of 
Goldwater-Nichols policy into DoS and USAID seem to be quite valid. But 
I am concerned with some of the specifics of your recommendations. For 
example, a civilian reserve is a great idea on paper, but when it comes 
time to deploy these individuals, DoS will run into the same problems 
as they do today--struggling to fill the requirements. Unlike military 
reservists, the civilian reservists will not be held accountable if 
they refuse to deploy, and therefore, can not be forced to go. Also, 
overhauling the agency so proper incentives can be incorporated and 
deploying entities are not penalized makes a great deal of sense. How 
can these incentives be adequately employed and the dependable, 
consistent capability be maintained if this system isn't completely 
self-contained within the agency?
    Ambassador Pascual. There are 2 different types of reserve 
capabilities. One is a reserve within the government, which is focused 
on deploying staff to design, manage and implement U.S. government 
operations in a post-conflict situation. The second is the deployment 
of skilled specialists, such as police trainers and rule of law experts 
who are the deliverers of post-conflict stabilization programs.
    A reserve capacity within government can be created through an 
Active Response Corps (ARC) and a Standby Corps has been proposed by 
the Office of Stabilization and Reconstruction (S/CRS) in the State 
Department. Both the ARC and the Standby Corps can include 
representatives from the State Department, USAID, and other civilian 
agencies. Individuals would apply for positions in the ARC as they do 
for other positions for Foreign Service deployment. At the time that 
these positions are advertised, it would be made clear that these 
individuals signing up for the ARC would accept overseas assignment 
anywhere, including places such as Iraq and Afghanistan. Once the ARC 
is created, the Secretary of State would have the capacity to direct 
the deployment of these individuals as necessary in overseas 
assignments. The range of assignments could vary. They can include 
creating a new U.S. government civilian presence in places such as 
Baghdad and Kabul, where there is no such presence. It can also include 
supplementing existing operations, such as in Sudan or Haiti, in a 
moment of crisis. Incentives can be built into the personnel system to 
encourage individuals to apply for these positions.
    Once individuals complete their assignments in the ARC, they can 
remain in the Standby Corps for a period of at least 5 years. Part of 
the requirement for the Standby Corps is participating in annual 
exercises to update and maintain their skills. Between an ARC of 
approximately 250 people at any given time and a Standby Corps that 
could be built up to 600-700 people over several years. The U.S. 
government would have a significant pool of skilled individuals from 
which to draw in order to staff immediate overseas emergency 
deployments.
    A Civilian Reserve Corps overseas for delivery of stabilization and 
reconstruction services would need to be structured differently than 
the ARC or the Standby Corps and in a more similar way to which the 
military staffs its National Reserves. National recruitment capability 
would have to be established. It would need to include clear rules for 
participation in the reserve, including: reservists to have the right 
to re-employment in their jobs once they return; during the period of 
time that individuals are in the reserve, they would become U.S. 
government employees just as individuals who enter the military reserve 
become employees of the military.
    Rules for the deployment of the reserve need to be clearly 
delineated. Just as with the military, the reservists would have 
limitations on the number of times in which they could expect to be 
deployed; however, the reservists would also have to agree to respond 
once called and to be ready to deploy within a minimum period of time.
    By making clear the ground rules for Civilian Reserves, the problem 
of civilian reservists refusing to deploy can be avoided, just as the 
military avoids this issue.
    Mr. Conaway. Ambassador Bodine asked a very important question 
about the effectiveness of interagency coordination and collaboration 
during real-world operations if it is not practiced at home. Obviously, 
the ability to coordinate effectively is severely degraded when not 
practiced sufficiently prior to deployment. But the opportunities for 
that very training exist today. Actually, interagency workshops in 2006 
developed an agreement among DoD, DoS, and USAID to implement SSTR 
training initiatives (specifically regarding PRTs) that would integrate 
the appropriate USG agencies into DoD pre-deployment training.
    Do you have any knowledge of the progress of this integrated 
training? Are there examples where it's working well? If not, what are 
the challenges that continue to prevent this invaluable opportunity?
    Ambassador Pascual. Some of the best examples that I have seen of 
interagency training across civilian agencies and between civilians and 
the military have occurred in the context of specific simulations that 
force civilian and military players alike to grapple with how they 
would operate in deployments with one another. S/CRS has undertaken a 
number of these simulations along with various combatant commands in 
the U.S. military. There have also been examples that have included 
international military and civilian participants. In one case, NGOs 
were also included in order to understand the equities and issues that 
arise in the integration of humanitarian personnel with other civilian 
and military actors.
    The problem with undertaking more of these training programs is the 
lack of adequate staff. The military has tens of thousands of 
individuals who they can dedicate to such exercises and training. For 
the civilian parts of government, it is a struggle simply to get the 
number of individuals necessary for immediate deployments, much less 
for training programs for two to three weeks. Until the number of 
civilian personnel are increased in reserve mechanisms such as the ARC, 
it will be extremely difficult to have adequate numbers of personnel 
who can dedicate time to effective interagency training exercises.
    Once training exercises such as these simulations are conducted, it 
then becomes possible to focus attention on how civilian and military 
agencies together can effectively plan with one another on how to 
extract necessary guidelines for doctrine that will direct future 
deployments and planning, on the necessary personnel and skills needed 
in order to make these deployments effective, and on resources that are 
needed in order to support the deployments. The issue of training 
cannot be looked unless it is examined alongside the supply of adequate 
personnel. Even the best training programs will fail because adequate 
numbers of people will not be able to participate in them and the 
lessons will not reverberate backwards through the bureaucracy.

                                  <all>

</pre></body></html>
